<html>
<title> - OVERSIGHT HEARING ON THE GENERAL ACCOUNTING OFFICE STUDY ON FOREST HEALTH</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
  OVERSIGHT HEARING ON THE GENERAL ACCOUNTING OFFICE STUDY ON FOREST 
                                 HEALTH

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                   SEPTEMBER 28, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-108

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources



                      U.S. GOVERNMENT PRINTING OFFICE
 51-714 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JAMES V. HANSEN, Utah                MAURICE D. HINCHEY, New York
JOHN T. DOOLITTLE, California        BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
JOHN PETERSON, Pennsylvania          ENI F.H. FALEOMAVAEGA, Am. Samoa
RICK HILL, Montana                   ---------- ----------
BOB SCHAFFER, Colorado               ---------- ----------
                     Doug Crandall, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                  Jeff Petrich, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held September 28, 1998..................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
        Prepared statement of....................................     2
        Briefing Paper...........................................     2
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     3
    Herger, Hon. Wally, a Representative in Congress from the 
      State of California, prepared statement of.................     4

Statements of witnesses:
    Hill, Barry, Associate Director, Energy, Resources and 
      Science Issues, General Accounting Office, Washington, DC; 
      accompanied by Chester Joy, Senior Evaluator, Energy, 
      Resources and Science Issues, General Accounting Office, 
      Washington, DC; Ryan Coles, and Ross Campbell..............     5
        Disturbance-Based Ecosystem Approach to Maintaining and 
          Restoring Freshwater Habitats of Salmon................    35
    Marcellus, Earl, Chelan County Commissioner, Wenatchee, 
      Washington.................................................    15
        Prepared statement of....................................    32
    McDougle, Janice, Associate Deputy Chief for State and 
      Private Forestry, Forest Service, U.S. Department of 
      Agriculture, Washington, DC; accompanied by Harry Croft, 
      Acting Director, Fire and Aviation Management, Forest 
      Service, U.S. Department of Agriculture, Washington, DC....    27
        Prepared statement of....................................   122
    Ross, Gordon, Coos County Commissioner, Coquille, Oregon.....    17
        Prepared statement of....................................    33
    Sampson, Neil, President, The Sampson Group, Inc., 
      Alexandria, Virginia.......................................    18
        Prepared statement of....................................    73

Additional material supplied:
    Differences in East and West Forests.........................   124



  OVERSIGHT HEARING ON THE GENERAL ACCOUNTING OFFICE STUDY ON FOREST 
                                 HEALTH

                              ----------                              


                       MONDAY, SEPTEMBER 28, 1998

                  House of Representatives,
         Subcommittee on Forests and Forest Health,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 1324, Longworth House Office Building, Hon. Helen 
Chenoweth (chairman of the Subcommittee) presiding.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. The Subcommittee on Forests and Forest 
Health will come to order. The Subcommittee is meeting today to 
hear testimony on GAO's study on the forests' health.
    Under rule 4(g) of the Committee rules, any oral opening 
statements at hearings are limited to the chairman and the 
Ranking Minority Member. This will allow us to hear from our 
witnesses sooner and help members keep to their schedules. 
Therefore, if other members have statements, they can be 
included in the hearing record under unanimous consent.
    The Subcommittee has held countless oversight hearings and 
briefings on the subject of the health of our national forests, 
and during this time we have learned that forest health 
conditions vary greatly across the country. On some national 
forests we find dynamic and healthy systems that are highly 
resistant to insect and disease epidemics. Those forests are 
found mostly in the East and the Northeast.
    On other forests we find conditions that the scientists 
tell us are far outside of their historic range of variability. 
Mostly, we find those conditions in the West where, for 
example, stand densities are much higher then they ever have 
been. In these areas we have too many trees and shrubs fighting 
for limited nutrients and moisture. These weakened forests are 
easy targets for insects and disease and then, ultimately, for 
unnaturally large hot fires. These conditions are mirrored in 
the national timber growth statistics.
    According to the Forest Service, the total annual tree 
growth of the national forests is about 23 billion board feet. 
If you subtract the annual harvest of 3 billion board feet and 
the annual mortality of 6 billion board feet, you find that the 
net growth rate in our na-

tional forests is an astounding 14 billion board feet each 
year. That's an addition every single year of 14 billion board 
feet.
    In some areas this represents a great success in 
reforestation, while in other areas it represents overcrowded 
forests that are simply waiting to be burned. These numbers 
also show that we are currently harvesting less than 13 percent 
of the total growth--just the growth--and only half of what is 
dying. We're only harvesting half of the mortality rate. This 
is what's causing such a heavy fuel load on our forest floors, 
and these numbers are not--and this philosophy is not--
sustainable.
    Too much growth can have as serious the consequences as too 
little growth and is, in fact, the reason why the total number 
and size of fires has dramatically increased in the last few 
years and will certainly continue to increase if aggressive 
management measures aren't taken.
    This is the purpose of today's hearing, to hear the 
preliminary findings from the GAO's long-term analysis on 
forest health conditions on national forests and to hear from 
the Forest Service on their programs and proposals for 
addressing serious forest health problems.
    [The prepared statement of Mrs. Chenoweth follows:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    This Subcommittee has held countless oversight hearings and 
briefings on the subject of the health of our national forests. 
During this time we have learned that forest health conditions 
vary greatly across the country. On some national forests we 
find dynamic and healthy systems that are highly resistant to 
insect and disease epidemics. On other forests, we find 
conditions that the scientists tell us are far outside of their 
historic ranges of variability, where, for example, stand 
densities are much higher than they ever have been. In these 
areas we have too many trees and shrubs fighting for limited 
nutrients and moisture. These weakened forests are easy targets 
for insects and disease, and then ultimately for unnaturally 
large hot fires. These conditions are mirrored in the national 
timber growth statistics:
    According to the Forest Service, the total annual tree 
growth on the national forests is about 23 billion board feet. 
If you subtract the annual harvest of 3 bbf and the annual 
mortality of 6 bbf, you find that the net growth on our 
national forests is an astounding 14 bbf each year. In some 
areas this represents a great success in reforestation, while 
in other areas it represents overcrowded forests that are 
waiting to burn. These numbers also show that we are currently 
harvesting less than 13 percent of total growth and only half 
of what is dying. These numbers are not sustainable--too much 
growth can have as serious the consequences as too little, and 
is, in fact, the reason why the total number and size of fires 
has dramatically increased +n the last few years--and will 
certainly continue to increase if aggressive management 
measures aren't taken.
    This is the purpose of today's hearing: to hear the 
preliminary findings from the GAO's long-term analysis on 
forest health conditions on national forests, and to hear from 
the Forest Service on their programs and proposals for 
addressing serious forest health problems.

                             BRIEFING PAPER

                       GAO Study on Forest Health

                           September 28, 1998

SUMMARY:

    The House Resources Subcommittee on Forests and Forest 
Health will hold an oversight hearing on forest health 
conditions on national forests and the Forest Service's 
programs and plans for dealing with forest health problems. 
Particularly, the hearing will focus on the preliminary 
findings of a longterm and ongoing Gen-

eral Accounting Office (GAO) study assessing forest health 
conditions on national forests.

BACKGROUND AND ANALYSIS:

    The Forests and Forest Health Subcommittee has held 
numerous oversight hearings concerning the health conditions of 
Federal forests. The findings of these hearings have 
overwhelmingly shown that forest health problems persist on 
many national forests, and Forest Service management activities 
to deal with these problems are woefully insufficient. In order 
to determine the validity of these findings, the Subcommittee 
requested that the GAO analyze forest health problems on 
national forests in the Inland West and the Forest Service 
units' responses to them. The specific objectives of the 
assignment were to answer the following questions:

    (1)What is known about the extent and seriousness of 
national forest health conditions in the Interior West?
    (2)How have different national forests responded to these 
conditions?
    (3)What factors influence forests' responses and how?
    (4)What options might improve effectiveness and efficiency 
of responses?
    The GAO initiated this study in December of 1997. Although 
a final report will not be ready until early in 1999, the GAO 
has generated some preliminary findings and will present them 
at the hearing.
    A recent publication from the American Forests' Forest 
Policy Center, titled: Forest Health in the United States, 
addresses these same concerns. Authors Neil Sampson and Lester 
DeCoster give an overview of forest health conditions and 
concerns in a diverse range of forest types and regions across 
the country. This important publication is the most up-to-date 
and thorough examination of this subject available. Neil 
Sampson will be presenting information from this publication at 
the hearing.

WITNESSES:

    A witness list is attached

STAFF CONTACT:

    Doug Crandall, 225-0691

    Mrs. Chenoweth. Now, since we don't have the Ranking 
Minority Member here, I would like to recognize our Ranking 
Majority Member, Mr. Jim Hansen, for any comments that he has. 
He has carried this fight, even when he was in the Minority, 
with great success, and it's my privilege to have him on the 
Committee.
    Mr. Hansen.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. Well, thank you, Madam Chairman. I've read the 
GAO report briefly, I have to admit, and I'm somewhat confused 
about it. In one case we talk about the idea that we have to 
have fires and that fires in the past have been the things that 
have mitigated the problems. Having been on this Committee for 
18 years and spent a lot of time with forest supervisors, I'm 
not quite sure if I understand what we're saying here--
controlled fires.
    We have clean water problems, clean air problems that are 
staring us in the face. We have fuel loads that are totally 
unbelievable in the West now because we're not doing much in 
the way of thinning. Our fires that are controlled are somewhat 
regulated. The insects that we have in many of the forests are 
rampant, and every time a forest supervisor tries to do 
something about it he gets a lawsuit from one of these 
environmental groups, and now we've killed out, basically, the 
Dixie Forest in Utah--it's almost dead, as we can't seem to get 
a handle on that. Every time they get one adjudicated another 
one hits them between the eyes.
    I'll be interested in listening to the GAO, as I've 
listened to them many times on reports in various areas, 
because it seems to me they outlined every problem. I'm not 
sure I saw any solutions, and I guess maybe that's not your 
position, but I'm very concerned that no one has yet come up 
with some good problems. I've heard the gentlelady from Idaho, 
the chairman of the Committee, talk about some fairly decent 
solutions, and I'm speaking to generalities because I don't 
know what else to do.
    You go into Yellowstone; half the people up there say this 
is horrible that the Park Service allowed this to go on. It 
cost one lady her job out of Denver. Other people say, ``Hey, 
it was the best thing that ever happened. Now new growth can 
come about.'' I wish the real experts on this thing would stand 
up. The only thing that I've seen when I chaired this Committee 
was going into areas that were privately owned, like 
Weyerhaeuser, and noticing how healthy their forests were, that 
they had beautiful forests, a lot of game in them. They didn't 
have any of the fuel load or dead fall and all of these things 
that others have.
    And with those many sweeping generalities, Madam Chairman, 
I look forward to hearing the testimony from the GAO and 
others.
    Mrs. Chenoweth. Thank you, Mr. Hansen. Mr. Peterson, do you 
have any comments?
    Mr. Peterson. No, Madam Chairman.
    [The prepared statement of Mr. Herger follows:]

 Statement of Hon. Wally Herger, a Representative in Congress from the 
                          State of California

    Madam Chairman, Members of the Subcommittee, I appreciate 
this opportunity to testify today regarding the current, 
unhealthy state of our National Forests. This issue is 
critically important to the district I represent in Northern 
California. California's Second Congressional District is home 
to all or parts of 11 national forests. The quality of 
maintenance and management on these forests has a direct impact 
on the quality of life of the people who live and work in my 
district and on the safety and protection of private lands 
surrounding these forests. When a fire, infestation, or disease 
starts on public lands it can easily get out of hand and spread 
onto private lands. Maintaining healthy national forests, 
therefore, is not only good environmental policy, but it is a 
good neighbor policy. Unfortunately, as things now stand, the 
U.S. Forest Service is not being a good neighbor.
    The Forest Service estimates that more than 40 million 
acres of our national forests are currently under a severe 
threat of destruction by catastrophic wildfire.
    The danger of this threat is particularly strong in forests 
in the Western United States. Unlike other forests in other 
parts of the country, forests in the West suffer from unusually 
high incidents of fire. During hot summer months these forests 
receive very little rainfall. Historically, Western forests 
were filled with stands of large trees. The forest floors were 
less dense and were naturally and regularly thinned by 
lightening and native caused fires that would clean out dense 
underbrush leaving the big trees to grow bigger. However, 
because of decades of well-meaning but aggressive fire 
suppression practices, these forests have grown out of hand, 
creating an almost overwhelming threat of catastrophic fire.
    According to U.S. Forest Service estimates, our national 
forests are 82 percent denser than they were in 1928. Thick 
undergrowth, combined with increasingly taller layers of 
intermediate trees has turned western forests into deadly fire 
time bombs. Now when a fire starts, it quickly climbs up the 
dense tree growth like a ladder until it tops out at the 
uppermost, or crown, level of the forest and races out of 
control as a catastrophic fire. Because of their high speed and 
intense heat, ``crown fires'' are nothing like the healthy 
fires of the past, but these fires have the capacity of leaving 
an almost sterile environment in their wake with almost no 
vegetation, wildlife, or habitat left behind.
    These dangerous conditions, however, are not irreversible. 
The forest service can proactively improve forest health. 
Regrettably, proactive policies are not being implemented. 
Because of mandates from the Forest Service's Washington 
offices and directives from the Clinton/Gore Administration, 
the forest service suffers from a virtual paralysis. Evidence 
of this paralysis can be found in the way the forest service 
increasingly uses its trust funds to pay for administration 
instead of funding on-the-ground forest health projects and in 
the way the agency advocates management by moratorium rather 
than managing by sound scientific evidence.
    Madam Chairman, this agency must move away from its current 
extreme environmental agenda that has set up our national 
forests for destruction. We must require the Service to 
implement more proactive, on-the-ground programs, like the 
Quincy Library Group proposal, that would restore forest health 
while providing economic stability for local communities.
    I therefore encourage the GAO, the Forest Service and this 
Committee to examine the latest science and find ways to 
implement programs that will return our forests to a healthier, 
more fire resilient condition.

    Mrs. Chenoweth. Well, with that, I'd like to introduce the 
first panel. Our sole panelist for the first panel is Mr. Barry 
Hill, Associate Director, Energy, Resources and Science Issues 
with the GAO. And, Mr. Hill, I wonder if you might introduce 
the party who is accompanying you at the table.
    Mr. Hill. Yes, Madam Chairman. With me today is Chet Joy, 
who led the work on this project.
    Mrs. Chenoweth. Thank you, Mr. Hill. Mr. Joy, we welcome 
you.
    And as explained in our first hearing, it is the intention 
of the chairman to place all outside witnesses under the oath. 
This is a formality of the Committee that is meant to assure 
open and honest discussion and should not affect the testimony 
given by witnesses. I believe all of the witnesses were 
informed of this procedure before appearing here today and that 
they have been supplied with a copy of the Committee rules.
    So, with that, would you please--both of you--please stand 
and raise your hand to the square?
    [Witnesses sworn.]
    Thank you. Under the Committee rules, witnesses must limit 
their oral statements to 5 minutes. However, I will waive the 
rules and allow Mr. Hill 10 minutes, because we have been 
waiting for this preliminary report for a very, very long time. 
His entire statement, of course, will appear in the record.
    The chairman now recognizes Mr. Hill to testify.

STATEMENT OF BARRY HILL, ASSOCIATE DIRECTOR, ENERGY, RESOURCES 
AND SCIENCE ISSUES, GENERAL ACCOUNTING OFFICE, WASHINGTON, DC; 
ACCOMPANIED BY CHESTER JOY, SENIOR EVALUATOR, ENERGY, RESOURCES 
AND SCIENCE ISSUES, GENERAL ACCOUNTING OFFICE, WASHINGTON, DC; 
                           RYAN COLES

    Mr. Hill. Thank you, Madam Chairman. May I also say, with 
us today is Ryan Coles, here on my left, who also worked on 
this project and who, along with Ross Campbell, on our right, 
will be helping out with the charts that we brought today.
    We're pleased to be here today to discuss our preliminary 
observations on the health of the national forests located in 
the interior West. If I may, I'd like to briefly summarize my 
prepared statement and submit the formal statement for the 
record.
    Mrs. Chenoweth. Without objection, so ordered.
    Mr. Hill. And before I begin I'd like to kind of begin my 
statement with a brief video clip provided to us courtesy of 
The Learning Channel, and I think you'll find very interesting.
    [Video.]
    Madam Chairman, this video clip illustrates what we believe 
is the most serious forest health-related problem on national 
forests of the interior West: catastrophic wildfires and the 
dangers they present when population and catastrophic wildfire 
exist together. This afternoon we'll discuss what the problem 
is, why it exists, and what is being done about it. Let me 
start by discussing what the problem is.
    The Forest Service estimated in 1995 that about 39 million 
acres, or about a third of these forests, are at high risk of 
catastrophic wildfires. Experts have estimated that the window 
of opportunity to take action before widespread damage occurs 
is only about 10 to 25 years. On the basis of the best 
available information, efforts to resolve this problem by the 
year 2015, which is the mid-point of that window, may cost as 
much as $12 billion or about $725 million per year. However, 
the Forest Service's current plans to do so may leave as many 
as 10 million acres still at high risk at that time.
    The interior West region we are talking about is the dry 
inland portion of the Western United States shown on the map to 
my left. For those of you who may not be able to clearly see 
these exhibits, they're also included as appendixes to our 
formal statement.
    There are many reasons why national forests in this region 
are in their current state. Historically, the region's lower 
elevation forests were subject to frequent low-intensity fires, 
though occasions of these frequent fire forests, which are 
generally dominated by ponderosa pine, are depicted in our next 
exhibit to my right. Frequent fire generally kept the trees in 
these forests few in number and their undergrowth sparse, as 
shown in our next exhibit on the left here, which is a 1909 
photograph of a Ponderosa pine stand in the Bitterroot National 
Forest in Idaho.
    Many past human activities, including some prior to Forest 
Service management, eliminated these frequent fires. As a 
result, tree stands have become much more dense, as shown in 
our next exhibit, which is a photograph taken from the 
identical spot in 1989, 80 years later. The most significant 
contributor to this increase in tree stand density has been the 
agency's decades-old policy of suppressing wildfires.
    Our next exhibit on the left shows the change since 1910 in 
the number of acres burned annually by wildfires in national 
forests, over 90 percent of which occurred in the interior 
West. You'll notice that for about 75 years, fire suppression 
was very successful.
    However, in about 1984 this turned around, and since then 
the number of acres burned annually has been increasing. The 
reason for this is because the increased stand density caused 
changes in the species mix of trees and some increases in 
insect and disease infestations, resulting in high 
accumulations of fuels for fires. Because of these accumulated 
fuels, fires are now much more likely to become large, intense, 
and catastrophic wildfires. The increase in the number of large 
fires since 1984 and in the number of acres that they burn, 
which has more than quadrupled, is shown in our next exhibit, 
to my right.
    Since 1990, 91 percent of these large fires and 96 percent 
of the acres burned were in the interior West. A 1998 estimate 
of the locations of forests in the interior West that are at 
medium and high risk of such catastrophic wildfires is shown in 
the exhibit to my left. Such fires are catastrophic because 
they can seriously compromise the agency's ability to sustain 
wildlife and fish, clean water, timber, and recreational 
opportunities, often for many decades or even for centuries.
    Especially troubling are the hazards that these large fires 
pose to human health, safety, and property, especially along 
the boundaries of forests where population has grown rapidly in 
recent years.
    Our next exhibit shows the recent population growth in this 
so-called wildland urban interface. Areas shown in blue are 
counties where the population grew at a faster rate than 
average. You'll notice that these areas are often concentrated 
around the national forests, which are shown in green.
    In addition, as shown in our next two exhibits, the cost to 
both prepare for and to fight these increasing numbers of 
catastrophic wildfires are also increasing rapidly, largely 
because of the higher costs in interface areas. As these 
exhibits show, the average cost for fighting fire grew from 
$134 million in 1986 to $335 million in 1994, or by about 150 
percent. Ninety-five percent of these costs were incurred in 
the interior West. Moreover, the costs associated with 
preparedness increased from $189 million in 1992 to $326 
million in 1997.
    It should be clear, Madam Chairman, that there is a very 
serious forest health problem in the forests of the interior 
West. The Forest Service has taken several steps to address the 
situation. Recently, it initiated a forest health monitoring 
program. It has also refocused its fire management program to 
increase the number of acres on which it undertakes fuels 
reduction activities and has restructured its budget to better 
ensure that funds are available to carry out this important 
work.
    The Congress has supported the agency in this task by 
increasing funds for fuels reduction and authorizing a multi-
year inter-agency program to better assess problems and 
solutions. However, it appears to us that the Forest Service 
does not yet have a cohesive strategy for overcoming the 
barriers to improving forest health by reducing accumulated 
fuels, partly because of a lack of data and partly because its 
current efforts are largely devoted to maintaining conditions 
on forests currently at low risk of fire.
    In addition, methods for reducing fuels can adversely 
affect agency achievement of its other stewardship objectives, 
such as protecting watersheds and wildlife. Controlled fires 
can be used, but there is concern that such fires might get out 
of control and about the effects on air quality of the smoke 
from these fires. Therefore, mechanical methods, including 
timber harvesting, will often be necessary to remove 
accumulated fuels.
    But this is also problematic, because the Forest Service's 
incentives tend to focus efforts on areas that may not present 
the greatest fire hazard. Also, timber sale and other 
contracting procedures are not designed for removing vast 
quantities of materials with little or no commercial value.
    In conclusion, Madam Chairman, the increasing number of 
uncontrollable and often catastrophic wildfires and the growing 
risk to human health, safety, and property, as well as to 
resources in the interior West, present difficult policy 
decisions for the Forest Service and the Congress:

          Does the agency request and does the Congress 
        appropriate the hundreds of millions of dollars 
        annually that may be required to fund an aggressive 
        fuels reduction program? What priorities should be 
        established? How can the need to reinforce fire into 
        these frequent fire forests best be reconciled with air 
        quality standards and other agency stewardship 
        objectives? What changes in incentives and statutorily 
        defined contracting procedures will facilitate the 
        mechanical removal of low-value materials?
    These decisions should be based on sound strategy. That 
strategy in turn depends on data being gathered under the 
Forest Service's and the Department of Interior's joint fire 
science program to be conducted over the next decade and 
subsequently integrated into individual forest plans and 
projects.
    However, many experts argue that the agency and Congress 
are in a race against time, and that the tinder box that is now 
the interior West simply cannot wait that long. Taking 
aggressive, strategic actions now would likely cost less than 
just allowing nature to take its inevitable course.
    Madam Chairman, this concludes my prepared statement. I'd 
be pleased to answer any questions that you or other members 
may have.
    [The prepared statement of Mr. Hill may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Mr. Hill. That was very good 
testimony, and I appreciate it.
    At this time the Chair will recognize Mr. Hansen for any 
questions he might have.
    Mr. Hansen. Mr. Hill, I think you did a very fine job in 
explaining the problem that we have here. I really don't know 
if you're the one to ask about solutions. You've done it very 
well; you've explained it. I wonder about harvesting of timber. 
I think Congress has created so many laws that it becomes very 
difficult for people to move.
    For example, the Clean Air Act; we could do more controlled 
burning, but we worry about that. The Endangered Species Act; 
people are of the opinion that if we go in and take out some 
forests, we'll disrupt some species at some place. The Clean 
Water Act; we also find that problem. We find that like our 
country just above us--Canada, as you know, for a short time 
they outlawed grazing, and then they found out that all those 
grasses were not taken down by a certain amount of slaughter 
animals and actually paid people in Montana and the Dakotas to 
take their sheep and cattle up there to keep their grasses 
down.
    As I mentioned earlier, the spruce beetle creates a 
devastating thing. Years ago the Forest Service testified that 
it was $8.40 a tree--I imagined that's changed since then--to 
spray them, but they would have to do a tree twice a week for 3 
or 4 months, which became impossible. So the Forest supervisor 
said, well what they ought to do is go in and harvest that 
heavily infested area and then the strong trees on the 
periphery would make it.
    So I, with all those obstructions staring us in the face 
and the tools that are used being somewhat hampered, I guess it 
comes down to the idea that we just say, ``What do you say if 
we just let Mother Nature do it? Let her rip.'' And I think 
that's what the environmental communities are basically saying 
is, just let Mother Nature do it, and we'll just take whatever 
happens. Am I reading this wrong?
    Mr. Hill. No. I think that you very adequately characterize 
the heart of the issue. There's a very, very serious problem, 
particularly in the interior West in terms of the conditions of 
the forests. I'm not sure allowing Mother Nature to take its 
course is a good solution to this problem. The fact is, the 
forests that are in the interior West are no longer natural 
forests. They have been shaped, they have been made into the 
condition they have been made into by human activity over the 
years.
    If they were natural, you could say let nature take its 
course, but the current condition they are in, if you allow so-
called nature to take its course and to have these fires burn, 
they will be catastrophic fires, and they will have serious and 
significant adverse impacts to the forests, to the wildlife, to 
the human habitat and housing and residents that live around 
the forests. It's--I guess the analogy is it's kind of like 
we've pushed a boulder down a hillside and it's picking up 
speed toward a village below. Do we say, let gravity take its 
course? That's certainly a choice, but I'm not sure it's a good 
choice right now, not one that's acceptable in terms of the 
consequences that you'd pay.
    Mr. Hansen. You know, Mr. Hill, the longer I listen to 
these debates, of which I've listened to hundreds of hours of 
them, it seems to come down to two schools of thought. One is 
the let Mother Nature do it thought: let's just take whatever 
happens. And the other one comes down to the management 
thought. Let's say man has a stewardship to take care of the 
ground, which a lot of people believe, and I subscribe to that 
theory. But you get down to it, and the trouble with the let 
nature take its course thing is it is detrimental to 
everything.
    For example, years ago we had some Forest Service people in 
here, and then we had a lot of land grant college professors 
here. And one person brought up the statement, and he said, 
``Look at the north slope of the Uinta mountains. It's just a 
beautiful green carpet. Leave it alone. Don't go in and manage 
it.'' The fellow from Utah State University, who was the expert 
on it, he said, ``However, we have an infestation of pine 
beetle, and if we don't go in and spray or cut those out,'' he 
said, ``it will have a devastating effect.''
    The chairman of the committee then asked the question, 
``What would be the devastating effect?'' He said, ``That 
beautiful green carpet that you fly over will soon be dead. I 
have a series of pictures of the Dixie, for example, when it 
was green, then red, then grey, then dead because we didn't do 
anything.'' And he said, ``I will guarantee everybody in this 
room''--and this place was packed--``that that will be a dead 
forest in a relatively short time.''
    He went on to say, ``I further guarantee that there will be 
a fire.'' He said, ``There is no way on God's earth''--direct 
quote--``that you can't prevent a fire, whether it's a careless 
cigarette, it's a lightening strike, or by other means--a 
campfire.'' He said, ``I will further guarantee there will then 
be a flood.'' And he said, ``to bring back that beautiful green 
carpet that we've elected not to manage--we let Mother Nature 
do it; we're not going to do it--that it will take 50 to 60 or 
70 years, if we're lucky, to bring it back in that green carpet 
that this gentleman, who wanted to let Mother Nature do it, was 
subscribing to that theory.
    So, this quandary never ends. Which way do we want to do 
it? And I think the Committee--and, of course, I can't speak 
for other members, but I think we've come down on the idea that 
we can adequately manage the public lands of America, but we 
have all of these conflicting things coming at us, like the 
Endangered Species Act and the Clean Air Act, and it just, in 
effect, ties the hands of our Forest supervisors and our BLM 
managers to the point they're almost throwing up their hands in 
despair and say, ``Well, what do I do?''
    You take Hugh Thompson--been in this business for years and 
years. He's the Forest supervisor of the Dixie, 67 years old, 
or so, should retire. They keep asking to keep him on, and he 
says, ``I wish we would have some scientists around here 
instead of people that have the burning in their bosom without 
any scientific knowledge.''
    And then it really disturbs me when the Forest Service kind 
of quietly says to our Forest supervisors in the West, ``Well, 
let the environmental community win a few.'' And if I could put 
them under oath--I think I someday will do that--and get the 
exact quotes and who it came from, because that is the way this 
administration likes to look at it. Excuse the last part, Madam 
Chairman, but that part irritates the heck out of me, because I 
don't care what the administration is. We should do what is 
right for the--all of us who are in America, and take care of 
it.
    I didn't mean to throw all of those things up at you, Mr. 
Hill. I appreciate your very interesting report, and I think 
you've outlined it very well. I just wish I knew the answer to 
all these things. I'll turn to wiser heads than me for that, 
I'm sure.
    Mrs. Chenoweth. Thank you, Mr. Hansen. The Chair now 
recognizes Mr. Peterson, the gentleman from Pennsylvania.
    Mr. Peterson. Thank you. I'd like to thank the gentleman, 
Mr. Hill, for his precise comments. You talked about 39 million 
acres, you talked about low-volume a lot of the wood is--I mean 
low-value wood. What is the potential market for that? Can it 
be used for pulp, for paper mills? Can it be--is there any 
potential market for low-value wood? I'm from the East, where 
that's what we do with it.
    Mr. Joy. Yes, Mr. Peterson, there are in fact some uses for 
some of it, but there is a large amount of it in the interior 
West that, A, is of extremely low value, and B, is very far 
from markets. There are a lot of transportation costs that you 
don't have in the State of Pennsylvania that they have to deal 
with.
    There are also other uses for it, aside from pulp, like 
biomass burning and things like that, and ethanol. However, 
that's at the edge of the market right now. That's going up and 
down, so there's nothing reliable for much of this material. I 
think it's fair to say, there's not any consistent or secure 
market for any long period of time that anybody wants to make a 
long-term investment in.
    Mr. Peterson. But would--now I've watched in the West and 
the East, where we have oriented strand board plants now; we 
have fiber board plants of different kinds, which is a huge 
growing market, and that's basically sawdust and chips 
depending on which board they're making.
    Mr. Joy. The best way, Congressman Peterson, I can answer 
it is, on September 30 of last year, I believe it was, 
Secretary of Interior Babbitt was here speaking on this subject 
and about a lot of their concerns about it, and he pointed to a 
Mescalero Indian reservation that was producing a whole bunch 
of materials for a biomass ulilization plant in Arizona. That 
plant in Arizona is closed--Stone Container. So, it's an up and 
down thing, so that's it's difficult to have a long, 
consistent----
    Mr. Peterson. Well, I guess what I was going to get to is 
if you're going to have someone invest in that part of the 
country to utilize the low-value wood--and there are ways to do 
that--you'd have to guarantee them a continual supply 
ongoingly, and with the lawsuits we face and the 
preservationists who want it to lay there for the insects, I 
mean, how do we prepare, how do we get a marketplace that would 
make it feasible to remove this low quality, dying----
    Mr. Joy. That was not something that we looked at in this 
phase. First of all, these are just preliminary observations 
without any conclusions or recommendations. It's an issue which 
we raise as a problem at this point, but we haven't thoroughly 
analyzed it yet.
    Mr. Peterson. Yes, I understand. I know you weren't----
    Mr. Joy. I don't know if it would necessarily----
    Mr. Peterson. But would it make some sense from your----
    Mr. Hill. Mr. Peterson, you know, I believe a lot of this 
is dependent upon the specific location, the geographical area 
of where this timber would be. So it's hard to give any 
generalities. Certainly, I think the Forest Service and the 
other land management agencies need to explore doing more of 
this, and they need to provide more incentives, if necessary, 
for commercial companies to come in and do this type of work. 
Even if it's not economically feasible, it might be a good 
investment in some areas to do something like this.
    Mr. Peterson. But if you're looking for ways to dispose of 
it to prevent fires, it would seem like you would have to 
develop a market, and could that be part of your 
recommendation, that there be some effort at the Forest Service 
level to develop a market for low-quality wood products and 
where they would guarantee a certain supply out of a region so 
that--you know, these are huge investments. These plants----
    Mr. Hill. Right.
    Mr. Peterson [continuing]. Even the small ones are $100 
million, so you're talking about a large investment, but they 
do consume a lot of low quality wood product that has no value 
otherwise.
    Mr. Hill. That's something the Forest Service should be 
considering as it develops whatever strategies it's developing 
to deal with the problem, certainly.
    Mr. Peterson. You certainly can't cut it and haul it for 
any great distance. I mean, it just isn't feasible, the cost of 
hauling, I'm sure, in that area. OK, I was----
    Mr. Hill. You know, the analogy here would almost be like 
when this country started to first recycle materials. It wasn't 
always economically feasible, and we basically developed market 
over the years so that now we do have a much better recycling 
program than we did 10 or 15 years ago. Maybe a similar effort 
would be warranted here. Maybe it's not economically feasible 
right now, but something that we need to explore just in terms 
of helping the situation and resolving the problem in the 
future.
    Mr. Peterson. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Peterson. Mr. Hill, I do 
want to say that for the record, the two associates that you 
brought with you----
    Mr. Hill. Yes.
    Mrs. Chenoweth [continuing]. that helped with the posters, 
I wonder if before you leave you could give their full names to 
the court reporter before you leave.
    Mr. Hill. OK.
    Mrs. Chenoweth. And the spelling and so forth, because I 
don't think she caught it.
    Mr. Hill. Sure.
    Mrs. Chenoweth. You mentioned in your testimony, and of 
course you showed us on the poster, that there were some areas 
that were absolutely red catastrophic, some others that were 
not so bad--other forest areas in the inland West--that were 
depicted in orange. In your studies, have you found out why the 
Forest Service has not just gotten in to the red areas and 
gotten something done? Have they--I mean, that's a sizable 
chunk there. Why aren't----
    Mr. Joy. Madam Chairman, I think----
    Mrs. Chenoweth. Why aren't they prioritizing their work and 
focusing on those catastrophic areas?
    Mr. Hill. That's a good question, and I may say that the 
Forest Service has been basically ramping up their program 
recently. A lot of their effort has been directed to the 
southeast area of the country, which doesn't have a problem, 
largely because that's where their attention has been for many 
years now. Their planning in the next few years----
    Mrs. Chenoweth. Let me ask you before you proceed, and I 
don't mean to interrupt you----
    Mr. Hill. Sure.
    Mrs. Chenoweth [continuing]. But isn't the Southeast mostly 
private forest though? I mean, there aren't huge blocks of 
national forest in the Southeast.
    Mr. Joy. Madam Chairman, that's correct. The majority of 
the Forest Service's holdings are, in fact, in the dry interior 
West here compared to there. However, this discussion was held 
about 60 or 70 years ago in probably a room like this over the 
issue of the Southeast, and the Southeast began a program many 
years ago that has maintained those forests, which are also 
short interval fire ones, but has maintained them in much safer 
fuel conditions. If the Forest Service discontinues that 
program, they will be faced with a similar problem.
    The Forest Service is just now approaching this issue here, 
and in terms of going to the worst spots, central to what one 
of the big difficulties is, this is not prepared by the Forest 
Service. This is prepared by an outside analysis firm, an 
analytic, professional group. The Forest Service has a series 
of different maps in the forests we visited. Some of them have 
done this kind of analysis, others have not. So not all of them 
can say right now where their problems are or code their 
forests yet.
    The Forest Service has a program, this Joint Fire Science 
Program, whose initial studies the results--some of the results 
in conjunction with this, will be out this December. It is our 
understanding they're going to have some sort of a fuel loading 
mapping at that time, but they don't have it yet.
    Mrs. Chenoweth. Thank you, Mr. Joy. Mr. Hill.
    Mr. Hill. Yes. What I was going to say is I think the 
Forest Service realizes the severity of the problem now. 
Hopefully, it's not too little, too late. And they have--they 
are proposing to increase the amount of acres that they will be 
reducing the fuels--the accumulated fuels--from about a half-a-
million a year up to 3 million acres a year by the year 2000, 
and then they plan to sustain that level of removal over the 
next 15 to 20 years. Most of that increase will occur in the 
interior West. That's where they are going to be focusing the 
greatest amount of increase in the removal of those accumulated 
fuels.
    Mrs. Chenoweth. Well, Mr. Hill, even given the figures you 
just now gave me, your testimony reflects the fact that there 
may still be 10 million acres left at high risk. How did you 
come up with those figures, and is that true?
    Mr. Hill. Well, based on our rough estimates--and I do say 
rough estimates because there is not a lot of precise data on 
this--but based on the estimates that are available from the 
Forest Service and from other experts we've talked to, the 
estimate is that there are 39 million acres that need the 
accumulated fuel needs to be removed and dealt with. Most of 
that's in the interior West. If you look at their numbers, if 
they're going to increase 3 million acres removal by the year 
2000, 1 million of which will continue to be outside that 
interior West area, so with 2 million being devoted to the 
interior West over a 15 to 16-year period, you can see that's 
about 10 million acres short of dealing with the entire 
situation.
    And may I say, the problem is even more complex because, 
quite frankly, they don't really have a good feel right now for 
where those high risk areas are and where the removals need to 
be done, and they're trying to get that data, but it's going to 
take them a while to get it. And certainly as they're 
continuing to study that and to get the data, the problem 
actually gets worse because more accumulated fuel is piling up 
all the time.
    Mrs. Chenoweth. And this will cost about $12 billion?
    Mr. Hill. Based on our estimate, we're talking an 
investment of $12 billion to remove this fuel.
    Mrs. Chenoweth. What was our budget?
    [Confers with staff.]
    Mr. Hill. And that's based on an average cost of removal of 
$320 an acre times, basically, the 39 million acres.
    Mrs. Chenoweth. I see.
    Mr. Joy. Madam Chairman, if I could just expand to one 
thing, a point on that, and that is that it may be that the 
Forest Service doesn't have to do all the 39 million or 
whatever the acreage might be, if they can develop some 
strategic method for prioritizing it so that they can still 
protect the towns, et cetera.
    The difficulty is, though, until you do have such a 
strategy, there's really no grounds for just ruling out and 
ignoring one acre or another. But it is possible they could do 
less than all of it, but they'll have to be strategic about it, 
and that's the plan that's not there quite yet.
    Mrs. Chenoweth. And thank you, Mr. Joy, and I really 
don't--I'm not real optimistic when we have a roadless 
moratorium in place, where it's very difficult to get to the 
areas that need to be taken care of.
    I see my time is up, and, as you know, I have a lot more 
questions to ask you, and I want to thank you very, very much 
for your very valuable testimony.
    And Mr. Hill, I understand that through the winter you'll 
be continuing to work on this, on my question of about 2 years 
ago, how we prioritize the forests with regards to which is the 
worst and which is the best in listing how our forest 
conditions are in terms of forest health today. So I understand 
that you'll be giving us a final report late winter. Is that 
correct?
    Mr. Hill. That's correct. We're hoping to get it done by 
late winter, and we're hoping that the work we're going to be 
doing now is really going to be focusing more on what are the 
solutions. I mean, we've got a good feel, I think, for what the 
problem is now and the complexity of it. Now we need to flush 
out a little bit more just what are some feasible solutions for 
dealing with this.
    Mrs. Chenoweth. Well, I want to thank you very much for 
your valuable testimony. We will be presenting more questions 
to you in writing, and as you know, the record remains open for 
a certain period of time, and we'll look forward to receiving 
those answers. I also want to thank you very much for the 
visuals that you had. Let me commend you on that video, too. 
That was gripping.
    So, with that I will dismiss this panel----
    Mr. Hill. Thank you, Madam Chairman.
    Mrs. Chenoweth [continuing]. And we'll recognize the second 
panel. Our second panel consists of Mr. Neil Sampson. He's 
president of the Sampson Group, Inc. in Alexandria, Virginia; 
Mr. Gordon Ross of Coos County in Coos Bay. He's County 
Commissioner in Coquille, Oregon, and Earl Marcellus, Chelan 
county commissioner of Wenatchee, Washington. And I also would 
like to recognize Congressman Doc Hastings, who will be joining 
our panel. Congressman Hastings, we'll go out of order and ask 
you to introduce Commissioner Marcellus.
    Mr. Hastings. Well, Madam Chairman, thank you very much for 
giving me this opportunity. I wanted to take some time and come 
over and introduce to you one of my constituents, Commissioner 
Earl Marcellus, from Chelan County in Wenatchee. Earl 
represents--he is a commissioner in a county that I think in 
excess of 75 percent of the land is owned by the Federal 
Government, and a big part of that, obviously, is the Forest 
Service, so that alone, I think, should qualify him as far as 
his remarks are concerned as knowing the subject.
    Prior to his getting into public service, he was a forester 
by trade, and so he has an understanding from the standpoint of 
working in the forest and with the forest lands as having some 
knowledge on this. So, I just wanted to take some time here 
today, and thank you for allowing me to introduce my colleague, 
Earl Marcellus. He represents the area in Chelan County. And by 
the way, we divide our counties into districts, and his 
district is the most heavily forested of the districts in 
Chelan County, and I think he represents his constituents very, 
very well, and I'm pleased to be here to introduce you to him.
    Mr. Marcellus. Thank you, if I may, Madam Chair, on that 
warm welcome here in Washington, DC. I appreciate it. I'm 
honored to have you introduce me, Doctor--Doc.
    Mrs. Chenoweth. Thank you, Congressman, and panel, with 
that, I'd like to recognize Commissioner Marcellus for his 
testimony.
    Well, wait a minute. Before we do that, we need to 
administer the oath, and I wonder if you might stand and raise 
your hand to the square.
    [Witnesses sworn.]
    Mrs. Chenoweth. Mr. Marcellus.

   STATEMENT OF EARL MARCELLUS, CHELAN COUNTY COMMISSIONER, 
                     WENATCHEE, WASHINGTON

    Mr. Marcellus. Thank you. I am Chelan County Commissioner, 
Earl Marcellus, and on behalf of our three-member board, I want 
to thank you for this opportunity to discuss our forest health 
problems and suggest solutions.
    First, a few facts about Chelan County. The eastern border 
follows the Columbia River where the arid environment creates 
rangeland conditions. The western border extends to the crest 
of the Cascade Mountain range, where forest type ranges from 
Douglas fir to late successional hemlock/cedar species.
    Our population is approximately 63,000, and the ownership 
of our land base is only--less than 12 percent is privately 
owned, and more than 88 percent controlled by government 
entities, primarily the U.S. Forest Service.
    With due respect to the Congressmen who will hear and read 
my testimony, I would like to make a tongue-in-cheek, but 
pointed statement. It appears that the perception of many from 
the Potomac is that the U.S. Forest Service and BLM are doing 
an excellent scientifically based job of managing our national 
forests in the Western States. That perception, however, is 
just as incorrect as the perception of those in the western 
States who believe that Washington, DC is the workfree drug 
place of America.
    The fact of the matter is, a crisis was brewing in the 
early 1990's because the health of our forests was in decline, 
and no active legitimate effort by the U.S. Forest Service was 
being made to harvest the timber that was dead and dying from 
insects, disease, and drought. Then, in late July 1994, that 
brewing crisis blew up into an absolute disaster when a 
lightning storm moved through our county.
    Seventy million dollars later, the fires were suppressed, 
but only after the loss of 200,000 acres of valuable watershed, 
wildlife habi-

tat, and approximately 1 billion board feet of timber. To date, 
rehabilitation costs have surpassed $20 million, yet less than 
10 percent of the burned timber was ever salvaged on Federal 
lands, resulting in the needless loss of revenue and resource 
utilization.
    These losses do not take into account the tremendous 
personal and financial hardships experienced by the citizens 
and businesses throughout our county because of highway 
closures, and the smoke-filled air keeping the tourists from 
visiting, as well as the loss of homes and other properties by 
our citizens.
    The tragic fact is the following two avoidable contributors 
led to much of these devastating losses. One, the U.S. Forest 
Service obviously had a let-it-burn policy, at least for the 
first 3 days during which time the initial manageable fires 
turned into dangerous project fires with no budget constraints. 
Two, the U.S. Forest Service has abandoned the proven 
scientifically based traditional forest management practices 
that in the past have controlled forest health problems through 
early treatment of insects, diseases, and overstocking.
    When the Forest Service supervisors and district managers 
are challenged about their management practices, they avoid 
discussing the merits of the issue and simply state they are 
following the laws established by Congress. I appeal to you to 
review the current laws and policies which are having a 
devastating effect on the health of our forests, as well as our 
communities, and then establish laws and allow only regulatory 
policy that is based on sound, verifiable, peer-reviewed 
scientific data. Congress must weigh lightly and guardedly the 
environmental rhetoric and computer modeling, which too often 
simply reflects the bias of a bureaucrat at the keyboard.
    Specifically, Congress should consider at a minimum the 
following points. One, grant the U.S. Forest Service the 
authority to begin prompt removal of dead or dying trees of all 
species and all sizes, not just the small trees. Two, require 
the Forest Service and BLM to designate forest health emergency 
in high-risk areas and apply necessary remedial management 
activities. Three, provide for expedited processes for 
complying with environmental activities, laws, and regulations. 
Four, limit judicial review and prohibit frivolous appeals, 
and, five, require pro-active management activities aimed at 
enhancing forest health to be included in the planning process 
of the U.S. Forest Service.
    In closing, I would say I am aware that those in Congress 
who agree with my assessment of the Forest Health problems and 
their solutions will meet with opposition from fellow 
Congressmen and the current administration. However, the 
signers of the Declaration of Independence faced much greater 
opposition when they mutually pledged to each other their 
lives, their fortunes, and their sacred honor. I sincerely 
believe we must look backward if we are going to move forward 
in salvaging not only our forests, but our beloved republic.
    Thank you very much.
    [The prepared statement of Mr. Marcellus may be found at 
end of hearing.]
    Mrs. Chenoweth. Thank you very much, Commissioner. That was 
outstanding.
    And I'm very pleased now to recognize Commissioner Gordon 
Ross, from Coos County in Oregon. I think Coos County, and Coos 
Bay, especially, vies for one of the most beautiful places in 
the world. With that, Commissioner Ross.

 STATEMENT OF GORDON ROSS, COOS COUNTY COMMISSIONER, COQUILLE, 
                             OREGON

    Mr. Ross. Thank you, Chairman Chenoweth, members of the 
panel. And thank you for those kind words about Coos County; we 
like to say a lot of nice things about it.
    The area that I want to be speaking to you about today is 
the area that Mr. Hill did not speak about, and that is the 
Douglas fir region. It was the white area up in the Pacific 
Northwest that wasn't included in his talk, but it was formed 
by catastrophic events, catastrophic fire.
    Douglas fir trees will not grow in the open; they're not 
shade tolerant. And so every acre of the Pacific Northwest has 
a catastrophic fire history, and because the people who formed 
the FEMAT report--didn't know as much about that history as 
others, we shaped a Northwest forest plan that will re-enact 
those historical events if we don't do something to change it.
    Fortunately, I bring to you an answer for our problem, and 
I've put it into your packet, and I would like to submit it 
into the record now, along with my written testimony, the 
``Disturbance-Based Ecosystem Approach to Maintaining and 
Restoring Freshwater Habitats of Salmon.'' This has been 
developed with Oregon State University, the U.S. Forest 
Service, Gordon Reeves from the Forest Service being the lead 
scientist on this, and I've, along with that, made a pictorial 
for you of pictures of these disturbances, both the fires, and 
the results of those fires in history, and the floods and 
landslides which play a part in the rejuvenating of our 
streams.
    Coos County has done more timber harvesting than any county 
in Oregon, perpetually since 1855 when the first two mills were 
established on Coos Bay. San Francisco was the market, and Coos 
Bay Douglas fir built San Francisco and rebuilt it after the 
fire and earthquake of 1906.
    Today, we continue to harvest more timber than any other 
county in Oregon, and at the same time we have more Coho salmon 
in our streams in Coos County than any county in Oregon. As a 
matter of fact, we have more Coho salmon in our streams in Coos 
County than all the other 35 counties put together.
    Now this was kind of an anomaly to me until the development 
of this research on disturbance-based ecosystems, because this 
explains why the landslides and why the storm events following 
the fire or following the logging, if you may, will rejuvenate 
these streams with spawning gravel and large woody debris. And 
I would really like for you to look through the pictorial here 
because it gives you an opportunity to see what history has 
done.
    On part one you'll see a fire map of just Coos County, but 
the entire Douglas fir region has a fire history. The next page 
is a forester's explanation of that. And then you'll see, on 
page 3, a forest where a fire has not touched it for 350 years, 
its very few Douglas fir trees standing; it will eventually be 
a shade-tolerant species.
    If you turn the page, on the next two pages you'll see 
pictures--two pages--will be pictures of the countryside of 
1868 that burned 300,000 acres. These are the kinds of fires 
that formed the Douglas fir region. On an unnumbered page, 
after page 5, a picture of two stands of Douglas fir timber. 
The stand in the background grew after the fire of 1868. It was 
planted by God. The foreground was planted by man, and there 
isn't a penny's worth of difference between either one of them, 
and environmentalists can get just as lost in either one, and 
we'd have to send the cops out to find them.
    [Laughter.]
    Page 6 shows the growth in 1930, the cruise of marketable 
timber in Coos County. You'll notice that almost 92 percent was 
Douglas fir, 2 percent Port Orford cedar, 2.9 spruce, 2.1 
hemlock, and so forth. This shows that initially, at the time 
of settlement, these timbered areas were predominately Douglas 
fir.
    Now we go into part 2, and on page 7 you'll notice a slide 
of a whole mountainside coming down. Page 7-A are excerpts out 
of the newspapers back in February of 1890, which is the last 
time we had slides that where everything that could slide did 
slide.
    Then later we had--in 1995 this piece of information was 
published and has been out for peer review, and I'm speaking 
again of the research material. And in 1996 God gave us a 
divine demonstration back there--17 inches of rain--and so 
pages 10, 11, and 12 show salmon spawning in gravel held in 
check by debris slides of that time--these pictures on December 
10, just 3 weeks afterwards. And gravel that had never been 
there in my lifetime--it had been bedrock since the days of the 
logging splash dams--and so we understand the rejuvenation 
then, the process of this.
    What this gives us is an opportunity now, with the new 
information under and within the confines of the Northwest 
Forest Plan, to start doing active management again in these 
riparian areas of the intermittent streams, and, again, add to 
the ability of the Forest Service and the Bureau of Land 
Management to get the red ink out of their budget and also do 
something for streams and for forest management that is 
positive.
    I'm sorry that I've run out of time, Madame Chair.
    [The prepared statement of Mr. Ross may be found at end of 
hearing.]
    Mrs. Chenoweth. Well, it was very, very interesting 
testimony, and thank you very much for these very interesting 
reports. I will study them in-depth.
    With that, the Chair is pleased to recognize Mr. Neil 
Sampson.

STATEMENT OF NEIL SAMPSON, PRESIDENT, THE SAMPSON GROUP, INC., 
                      ALEXANDRIA, VIRGINIA

    Mr. Sampson. Thank you, Madam Chairman. I come before the 
Committee today with mixed feelings. In 1992 I testified as 
follows: ``It's time to get beyond business as usual on many of 
the forests in the Inland West because the risks of major 
environmental economic and social disaster are growing, and the 
actions taken so far are not even beginning to keep up with the 
worsening situation.''
    You know, that statement stands today. I don't know whether 
to feel decent because we had it right then or to feel bad 
because we haven't done a whole lot with that information. The 
study that was reviewed today by GAO doesn't add a lot to what 
we knew in 1992. It puts detail on; I hope it adds credibility. 
And I hope it gets some action, because since the day I gave 
that statement we've burned about 12 million acres in the 
inland West, and spent about $2 billion. On the Boise National 
Forest where I was doing most of the work to research this 
situation, we've burned about 300,000 acres, about 25 percent 
of the Ponderosa pine forest. We've burned it at heats that 
suggest that those soils are damaged to the extent that the 
chances of that forest coming back are fairly slim in a lot of 
places. So it doesn't give us any great pleasure to come here 6 
years later and say we're still not getting at it.
    On another aspect, in line with the questions that were 
being asked earlier by Mr. Peterson, I gave copies of ``Forest 
Health in the United States'' to the Committee members. And I 
wanted to call your attention to the fact that we wrote that 
booklet about forest health in general across the United 
States.
    We identified six factors that we think are changing the 
underlying structural dynamics and ecological processes in 
America's forests. They include this dramatically altered fire 
regime in many places that we've talked about, landscape-level 
structural simplification, often brought about by efforts to 
preserve existing forest conditions; forest fragmentation, 
which is often brought about by the fact that there's more of 
us dividing up the area among ourselves; introduction of exotic 
species that crowd out natives; changes in atmospheric, water, 
and soil chemistry that affect the growth and competition of 
forest species, and unusually high animal populations, which 
while they be native, like deer or elk, are really changing the 
biological dynamics in these systems.
    Now I don't have time to discuss those today, and it's not 
the primary point of the hearing, but I wanted to leave you 
with a couple of points. First of all, these changes are 
affecting forests in all parts of America today, and the long-
term effects are not known. What we know is that the forests of 
tomorrow are going to reflect the effect of these pressures, 
whether they're good or bad.
    The other thing is the changes are not happening in 
isolation. The gentleman from Pennsylvania asked the question 
about the forests in his area. They are seeing fragmentation, 
chemical alteration, exotics, and animal irruptings, all 
happening at the same time. They're not happening one at a 
time; they're all happening together. Some of the most 
unnatural forests in America are growing in the State of 
Pennsylvania today, and that's not cause for comfort.
    The other thing is that, as far as we can tell, most of 
these changes, and the ecological effects, are probably 
unprecedented. We don't have any sense that this kind of thing 
has happened before. The forests of today are not a replica of 
history, and the ones of tomorrow are not going to follow that 
pattern either.
    There's a policy message in here that I'd like to leave 
with the Congress. First of all, ignorance about this isn't 
comforting. We don't know a lot about how this is happening, 
and the only way we're going to learn is a vastly increased 
level of forest ecological research, both public and private, 
to understand the current dynamics and the potential changes 
that are affecting these forests.
    And the second message is the one you discussed earlier: it 
is my position that increased management, not just watching and 
waiting, offers the best opportunity to help these forests cope 
with these kinds of stresses. We caused the stresses. With 270 
million Americans, we continue to cause them today, and it's 
irresponsible to sit back and watch what happens accidentally 
from those kinds of things, in my judgment.
    I'd like to turn now to those fire-dependent forests of the 
Inland West that we've talked about so many times. We can 
return those to fire-tolerant conditions, but it's not easy and 
in many places it's not cheap. I'm going to talk today, as most 
people do, about the Ponderosa pine forests. We're going to 
skip over 45 million acres of Pinyon-Juniper forests, Mr. 
Hansen, which is one of the biggest problems in your State and 
others in the Southwest, because the lack of markets there are 
almost absolute in terms of that particular product.
    But in the Ponderosa pine forests, people have been 
demonstrating that there are effective ecological restoration 
approaches that are positive and that can be done. The problem 
is, these are not traditional timber harvests and they 
shouldn't be confused with them. They're very different. As a 
result of doing it differently a lot of valuable trees are left 
in the woods because you're trying to restore the structures 
that the forests need, and a lot of not very valuable stuff is 
taken out. And as a result, the economics of this operation are 
often really limited.
    But Congress can address some of those problems. Let me 
give you some ideas. The reason these projections are not 
economic is the three reasons that I've identified. The first 
is the material has very little market value. It's either too 
small or crooked or defective to be used in today's industry. 
Much of it should be viewed as a challenge of safe disposal--
how to get it out of there at the least possible cost. One of 
the ways to do that is to encourage and support the 
establishment of biomass-based energy production. We've talked 
about that before, and there's plenty of record to support the 
idea.
    The second reason the costs are high is because getting 
small material out of the woods is expensive. It's a lot more 
expensive than getting big material out of the woods, and 
there's not much Congress can do about that. It's always going 
to be costlier to handle small material, but obviously if we 
want the Forest Service to deal with it, we can change our 
attitude about below-cost operations because that's what's 
going to have to happen.
    But the third thing is that the costs are driven needlessly 
high by policies that have been designed for big timber--big 
log timber harvests. These policies were designed to harvest 
the timber in Mr. Ross's district, and they are well-fitted to 
there. But the Forest Service needs to change its policies and 
practices, to get away from cruising and stumpage sales and 
log-scaling and other administrative practices designed for big 
log? They need to go to more use of outside contractors, use 
weight measurements instead of scaling, adopt end-results 
performance measures, and carry out multi-year planning to 
assure people of a long enough supply of material that they can 
actually invest in treatment facilities.
    I see the time is up. I'm going to close by saying that we 
need to also evaluate the costs of not treating these places. 
It was testified that treatment cost could be $350 average. I 
think that's awfully high. We're seeing treatment in prescribed 
fire in the range of $10 to $12 an acre, and treatment by 
mechanical thinning that's ranging from $165 an acre profit to 
$165 an acre loss, depending on the different situations 
involved.
    But even if we lost $250 an acre, the costs of the 
wildfires that we're seeing now run in the $1,500 to $2,000 
range, and in places like Buffalo Creek, Colorado, which I've 
discussed in my written testimony, they're going to be digging 
mud out of those water reservoirs for we don't know how many 
years. It's costing them somewhere between half-a-million to $1 
million a year. That's the rate the water users of Denver are 
paying for that fire. So, let's talk about the costs of not 
doing something, as well as the costs of doing things when we 
think about the economics of this.
    I thank you for your time and would be happy to answer any 
questions.
    [The prepared statement of Mr. Sampson may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you very much, Mr. Sampson, for your 
valuable testimony.
    The Chair recognizes Mr. Hansen for his questioning.
    Mr. Hansen. Madam Chairman, I really don't have any 
questions for this group. I think it was very interesting to 
listen to, and I was glancing through their statements as we 
went through here. Frankly, I'd say I agree with many of these 
things; I just don't know how you implement them. The four 
points that the one gentleman brought up were excellent. How to 
do these things is always the problem. It's how to get it done, 
you know, and that becomes some very heavy legislative 
roadblocks.
    I would like to come back for the last testimony. I have to 
be on the floor in 6 minutes, so I'll try and get right back, 
but thank you for the time, and I thank the gentlemen for their 
testimony.
    Mrs. Chenoweth. Thank you, Mr. Hansen. The Chair recognizes 
the gentleman from Washington, Mr. Hastings.
    Mr. Hastings. I just have two questions I want to followup 
with to Earl Marcellus. You made five points as to what your 
suggestions would be. I want to specifically talk about points 
three and four. Point three, ``provide for expedited process 
for complying with environmental activities, laws, and 
regulations,'' and four, ``limit judicial review and prohibit 
frivolous appeals.''
    I made the assumption that you came to both of these 
conclusions and suggestions both from being in the private 
sector and probably, more recently, in the public sector as 
commissioner. If I'm right on that, let me know, but give me an 
idea in either case of how you arrived at that and maybe some 
real-life examples that lead you to these conclusions.
    Mr. Marcellus. Well, let me just use, maybe, an analogous 
example. We've got hundreds of miles of hiking trails in our 
county into the beautiful Cascade Mountains, and last year the 
Forest Service was totally unable to open these trails in the 
wilderness area portions with hand equipment. They spent tens 
of thousands of dollars doing an environmental assessment as to 
whether they should allow chainsaws to go in and open these 
trails, and in the private sector and in the good old days with 
the Forest Service, we would have moved in and just gotten the 
job done.
    There's just simply too many regulatory hoops for the 
Forest Service to jump through to get the job done. And like I 
said in my testimony, they tend to give ``We the people'' the 
answer, ``Well, it's Congress' fault. We're just simply 
following the laws established by Congress and by the 
regulatory agencies that you have oversight.''
    Mr. Hastings. Let me just followup then. After the burn in 
1994, only about 10 percent--or maybe it was a little big 
higher--of that was salvageable, or was salvaged, I should say. 
What do you--I mean, are the reasons for that which you 
describe here by examples in three and four?
    Mr. Marcellus. Well, let me use that question to state a 
quote. It goes as follows: ``He has erected a multitude of new 
offices and sent hither swarms of officers to harass our people 
and eat out their substance.'' Does that not sound like the 
regulatory bureaucracy that we have today? That quote comes 
directly out of the Declaration of Independence, and it just 
seems that we have come full circle in allowing what I like to 
refer to as a fourth branch of government to evolve in this 
country--the regulatory agencies--and the Forest Service's 
hands are bound.
    And I have to be very frank and honest with you today. It 
appears to me and many others that many of those who have the 
green agenda have gone to work for the Forest Service, and a 
lot of the good timber people and the people who really know 
how to fight fires have become so frustrated that they have 
voluntarily retired or taken early retirement. It's really most 
unfortunate.
    Mr. Hastings. Well, the last thing I would say is, to 
briefly corroborate what you're saying, I had a town hall 
meeting up--not in your county, but in Okanogan County right 
above that, and I heard essentially the same thing from retired 
members of the Forest Service that led to the same conclusions 
that you came to. I think that that--I think, Madam Chairman, 
that is happening.
    Thank you very much for allowing me to sit here.
    Mrs. Chenoweth. Thank you, Mr. Hastings. Mr. Ross, did I 
understand you to say in your testimony--I either read it or I 
heard you say--that your county manages some forest lands?
    Mr. Ross. Yes, our county manages 15,000 acres of forest 
land, and we do it and we return a profit to the taxpayer. In 
fact, 93 percent of our timber sale value is returned to the 
taxpayer in the form of county services. We operate our forest 
on 7 percent. Only the Federal Government can be given 
timberland and lose money managing it.
    Mrs. Chenoweth. Can you explain again what the 
opportunities are to apply the new research that you were 
talking about? First, I'd like for you to tell us in more 
detail how landslides can really help the fisheries, and then 
I'd like you to address how this new research, in light of the 
Northwest Forest Plan and the President's record of decision, 
how this applies.
    Mr. Ross. Thank you, Madam Chair. This research has 
described--or, it has been research looking at the evolution of 
our streams, and the streams that within the last four or five 
decades have had major catastrophic events, major landslides, 
have ade-

quate spawning gravel and large, woody debris to hold that 
gravel in place. The ones where it's been hundreds of years are 
the ones that maybe look the most pleasant to the eye, but are 
actually the most barren of fish and fish habitat.
    Now the opportunity lies within the Northwest Forest Plan's 
intermittent stream buffers, those buffers that Jerry Franklin 
said the lizard people put in, that got doubled in size when 
they got to Washington and then enacted into almost stone when 
the record of decision was handed down by Judge Dwyer.
    However, even in the record of decision, it shows that 
those were interim buffers until the watershed analysis could 
be done. Those are the buffers that when we got right out on 
the landscape, we found they overlapped. It just took away from 
the matrix areas where the active forestry was to be practiced 
and buffered it from anything happening.
    So the opportunity now, since the watershed analysis has 
been done, is to apply this new technology--or, rather, this 
new research and the technology that this will lead to--to 
harvesting and doing active management in those buffered areas 
as we can enter into them and then, finally, over the whole 
landscape as the new decadeal plan is developed. I think it's a 
great opportunity to apply science, a science that has been 
peer-reviewed, and I will be presenting this at 11 o'clock on 
Thursday to Mike Dombeck.
    Mrs. Chenoweth. Gosh, that's very interesting. I'd like to 
ask Mr. Sampson, What impact is the current Forest Service 
emphasis on prescribed fire likely to have, in your opinion?
    Mr. Sampson. Well, they're certainly ramping-up their 
efforts in prescribed fire, and they're doing it over a lot 
broader area and a lot more cheaply. The problem that I think 
you're going to see was touched on briefly by the GAO. Because 
the target is acres, the incentives are to go get what you can 
get, rather than what's really the highest priority.
    And because the tool is prescribed fire, some of the 
highest priority areas are really dangerous to get. They're too 
close to habitation, there are too many houses around--it's 
just too difficult. They're in highly populated areas, and the 
smoke problem is very real and very much of a restriction.
    So the problem with going at the large situation that 
exists with prescribed fire as the main approach is that it 
tends to lead you away from the highest priority and most 
dangerous and difficult areas.
    Mrs. Chenoweth. How important are the current restrictions 
on smoke and air pollution?
    Mr. Sampson. Well, they have not stopped very much yet, it 
doesn't appear.
    Mrs. Chenoweth. No.
    Mr. Sampson. We can't find a lot of evidence yet that they 
have limited the use of prescribed fire. When you find what 
limits prescribed fire in the West today, you'll find a lack of 
staff trained in the techniques. You'll find a limited number 
of days in a year when you can safely burn anything, between 
when it's too dry to be safe and too wet to do it at all, and 
you'll find these large areas involved.
    Smoke is important. There are very real health hazards 
caused by smoke, and in those populated areas it's going to get 
worse and worse. But, so far pollution regulations haven't 
stopped very much because most of the burning has been back 
away from that populated area.
    Mrs. Chenoweth. Mr. Sampson, your four points that you 
concluded your testimony are very, very good, but the fact is, 
is it not true that actually getting in and mechanically 
cleaning up the understory and the fuel load and thinning out 
actually can still have a value in the marketplace, whereby 
prescribed burning, really, simply costs the taxpayers money? 
What is your opinion on that?
    Mr. Sampson. Well, I don't think you should put them at 
opposite poles like that. I think each are appropriate in their 
own place. The problem with the products that need to be taken 
out is very local. In Cascade, Idaho, there's a new mill that 
takes material down to a 4-inch top, positions it with 
computers, and economically produces lumber out of 4-inch 
material. That changes the definition of a saw log dramatically 
from what we've seen in many other areas. But what can happen 
in that mill in Cascade can't happen anywhere else in that 
region because they're the only ones that have invested in 
that.
    I was in Colorado yesterday doing a project where there's 
no industry left at all, so nothing is a saw log. It doesn't 
matter what its size or quality. There's no such thing as 
commercial timber opportunity of any kind when there's no 
industry left to take it out of the woods and do something with 
it.
    So, this is very localized in nature. In a lot of these 
communities, people are making really fine use of this small 
stuff. We've got trees out there 5 inches in diameter that are 
125 years old. They've been suppressed; they're sitting there 
at 5 and 6 inches. They are some of the highest quality wood 
for beams and other products that is available. We've just got 
to get them into that kind of use.
    So, there's a lot of opportunity. It's almost all non-
traditional. We've got to deal with it by weight instead of 
scaling, because if you try to scale one of these forests 
that's full of 4-inch, 5-inch and 6-inch stems, with 1,200 of 
them to the acre, you just go crazy with your costs. There are 
ways to do it, but we've got to get away from the traditional 
timber harvest mentality and go to a forest restoration 
mentality, administratively. That was the point I was trying to 
get at.
    Mrs. Chenoweth. Well, let me take another run at this.
    Mr. Sampson. OK.
    Mrs. Chenoweth. Prescribed fire--does that add anything to 
the timber fund?
    Mr. Sampson. It really does. You've got forests out there, 
Madam Chairman, that were maintained historically by fire and 
that need fire once in a while. That prescribed fire might be 
slash burning after a mechanical treatment. It might be 
prescribed fire before or after treatment; that's not the case. 
You don't have anything else in your tool kit that recycles 
nutrients and that provides the kind of ecological impact that 
fire does, and so putting fire back in that landscape safely is 
a really important part of this that shouldn't just be done as 
an either/or--we're either going to do this or that. We need to 
do a lot of all of that.
    Mrs. Chenoweth. Now with prescribed burning, is what you're 
telling the Committee that in the long run, given that there 
will be some sort of mechanical harvesting of some sort down 
the pike in the long run, then that later on adds to the timber 
fund?
    Mr. Sampson. It's both now and later. There's a huge bulge 
of material out there now----
    Mrs. Chenoweth. Right.
    Mr. Sampson [continuing]. from 50 to 75 years, and a lot of 
that has to come out before prescribed fire can be re-
introduced. But in the long run, a management regime that does 
not totally exclude fire is probably going to create healthier 
and more productive forests, than one that tries to totally 
exclude it.
    Mrs. Chenoweth. Let me take my third run at this. Within a 
period of 10 years' prescribed fire, would that add to the 
treasury in the timber fund?
    Mr. Sampson. No.
    Mrs. Chenoweth. OK.
    Mr. Sampson. Not in the short term. It won't in the short 
term, and in the short term the bulge of material that's on 
much of that land, as we've said earlier, precludes using 
prescribed fire in many areas.
    Mrs. Chenoweth. But with a change in policy within 10 
years--if, you know, given that the marketplace has changed and 
given the fact that some mills are going down to the 4-inch 
diameter, given the fact that even in Idaho, and I'm sure many 
of the agricultural States, they're not now talking about 
timbers made out of straw. Given the fact that the market will 
respond to the demand that's out there, if we went in with 
mechanical means we could then begin to buildup the timber 
fund--not with straw, but with the small stuff, as well as the 
larger diameter timber. So that was my original question.
    Mr. Sampson. Well, I honestly have to tell you that for the 
Congress to think that it's going to build a timber fund with a 
lot of these projects--I'm not as optimistic about that as I 
believe your position is. What I think you're doing is reducing 
the damage accounts greatly and, hopefully, bringing the timber 
fund into it neutrally. I think you could make enough money to 
pay for the treatment. I don't think we're going to get rich--
--
    Mrs. Chenoweth. OK; so this answer that you've just given 
me is based on your second premise, that to go in and restore 
the land will be expensive, and we're going to have to re-order 
our thinking with regards to below-cost timber sales.
    Mr. Sampson. But in the long run, that's the pathway back 
to healthy forests in that region.
    Mrs. Chenoweth. I think so. Very good. Thank you, Mr. 
Sampson. Mr. Marcellus?
    Mr. Marcellus. Yes, Madam Chairman, if I may add to the 
answer of Mr. Sampson in light of your question of prescribed 
burning, I think he made it fairly clear that prescribed 
burning can be after harvesting operations to burn the slash, 
which was a historical management tool of the Forest Service 
and private industry. And I think what you were asking, if 
prescribed burning was done without harvest, would that give a 
return to the coffers? And in the short term, no; it's costly 
to go out there and do that sort of thing.
    But if it's done successfully--and I'm not a proponent of 
prescribed burning when there is the opportunity to get out 
there and do it mechanically or cost-effectively by manpower 
and do the thinning of the overstocked stands. I wish I'd have 
brought a little pine section that I cutoff of a tree that I 
thinned out on my own home just outside of my house, years ago, 
and it was a Ponderosa pine tree which isn't known to respond 
that well to release.
    And that's what we're talking about, is getting in there 
and dealing with the overstocked stands to give more room for 
growth, more ability to get moisture and nutrients. And it will 
bring a return because your trees that are left behind are more 
insect-resistant and fire-resistant, and they will grow faster 
and will get more growth per acre in 20 years or more return. 
So we do have some--but I think in our county and throughout 
the West, there are stands that are in great need of 
traditional management practices that have been cast away that 
will generate returns today.
    Mrs. Chenoweth. Very interesting. I have two bills out 
there that we're hoping, somehow, will be successful, and 
they've addressed what Mr. Sampson and all three of you, 
actually, have talked about--the Hazardous Fuels Reduction Act, 
which cleans up the area between the urban wildland interface, 
and the video that we saw GAO show, my bill would directly 
address that.
    We saw catastrophic fires in Florida this year affecting 
people's homes. We lost homes--thank goodness we didn't lose 
any lives, but the year before that we lost a large number of 
homes and some lives in California because we have not 
addressed that urban-rural interface, and we must do so.
    And then the NEPA parody bill, which will target certain 
forests that are in dire shape, and hopefully will be able to 
give the Forest Service a tool to get in and start working on 
those areas, which, by the way, every single one of them is a 
red area that was shown on Mr. Hill's poster boards.
    So with that, I've learned a lot from you, and I want to 
thank all three of you for being here. Two of you have come a 
long way. And it's always a privilege to be able to hear Mr. 
Sampson, and I appreciate this book, the ``Forest Health in the 
United States'' by R. Neil Sampson and Lester DeCoster. I've 
read it once and am going to look forward to reading it again. 
Thank you very much.
    And with that, this panel is excused.
    Mrs. Chenoweth. The Chair now recognizes Janice McDougle as 
the next panelist. Ms. McDougle has faced this Committee many, 
many times, and she is the Associate Deputy Chief for State and 
Private Forestry, Forest Service, U.S. Department of 
Agriculture in Washington, DC, and she is accompanied by Mr. 
Harry Croft, Acting Director, Fire and Aviation Management of 
Forest Service, USDA in Washington, DC.
    So, Ms. McDougle, I wonder if you could take one of the 
center seats, maybe over on the other--that's good. Good, and 
now I wonder if you could both stand and raise your hand to the 
square.
    [Witnesses sworn.]
    Ms. McDougle, please proceed.

STATEMENT OF JANICE McDOUGLE, ASSOCIATE DEPUTY CHIEF FOR STATE 
   AND PRIVATE FORESTRY, FOREST SERVICE, U.S. DEPARTMENT OF 
AGRICULTURE, WASHINGTON, DC; ACCOMPANIED BY HARRY CROFT, ACTING 
 DIRECTOR, FIRE AND AVIATION MANAGEMENT, FOREST SERVICE, U.S. 
           DEPARTMENT OF AGRICULTURE, WASHINGTON, DC

    Ms. McDougle. Good afternoon, Madam Chairman, members of 
the Subcommittee. I appreciate the opportunity to join you to 
discuss forest health and to hear the GAO's preliminary 
observations concerning forest health and fuels. The Forest 
Service is looking forward to working with GAO to identify ways 
to continually improve forest health conditions.
    We estimate that approximately 39 million acres of National 
Forest System lands, primarily in the inland West and the 
Atlantic coastal States are at high risk from damaging, high-
intensity wildland fire. Many of these stands are dense and 
over-crowded, with high mortality rates due to bark beetle or 
other insect outbreaks. It is important that the public 
understand that fire is part of a natural ecological cycle, and 
over a long enough period, all forests will eventually burn.
    The exclusion of wildland fire for the last 100 years has 
had a profound influence on the composition and structure of 
natural fuel conditions and the function of those ecosystems 
where frequent and low-intensity fires historically occurred. 
These conditions are contributing to the growing severity of 
the fire situation throughout the country. Unless we address 
these changed conditions, the fire severity situation will 
continue to grow, threatening the health of watersheds and 
larger ecosystems.
    In addition to changes in natural hazardous fuels, 
demographic changes of people moving from urban areas to rural 
areas have resulted in an increasingly complex mix of people, 
infrastructure, and forests, which is known as the wildland 
urban interface.
    Throughout the United States, it is more and more common to 
see homes and other types of structures being built in wildland 
environments. Because of their location, these structures are 
extremely vulnerable to fire, should a wildland fire occur in 
the surrounding area. The trend is resulting in a volatile 
situation that must be addressed.
    This is as much a forest health concern as a fuels concern. 
We are addressing this problem at the most fundamental level. 
We have embarked on an aggressive program to use fire in a more 
natural ecological role to reduce fuels hazards and to help 
protect forest ecosystems from the ravages of high-intensity 
fires and epidemics by insect attacks.
    Other tools we are using to improve ecosystem conditions 
include timber sales, thinning, and other fuel reduction 
methods, including mechanical treatments. However, we will not 
treat, nor is it practical to treat, all of the affected 
acreage.
    Therefore, we are prioritizing areas to be treated first, 
to address those areas of greatest risk and potential for 
damage, such as wildland urban interface areas, critical 
watersheds, and sensitive wildlife habitats. This strategy will 
focus available funds and capabilities where they will have the 
most effect. We are creating a management environment that 
encourages the treatment of those priority areas through budget 
allocation and direction to local managers.
    To help understand the nature of the issues, we are 
currently implementing the Joint Fire Science Plan as provided 
in the Conference Committee report for the 1998 Interior 
Appropriations Act. The four principal purposes of the plan are 
to complete a national program for fuels inventory and mapping, 
evaluation of fuels treatment, scheduling of treatments, 
monitoring and evaluation. Projects have already been 
identified and grants and contracts issued to help us better 
manage the hazardous fuel reductions program.
    Clearly, the challenges we face in improving forest health 
and reducing fire risk are great. By restoring fire to its 
natural role in ecosystems, we can improve the health of our 
Nation's forests, while at the same time reducing their 
susceptibility to catastrophic fire.
    Thank you, Madam Chairman. I have summarized my remarks, 
and we will enter into the full record our testimony. I'm 
prepared to answer any questions that you may have at this 
time.
    [The prepared statement of Ms. McDougle may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Ms. McDougle. The GAO, in their 
testimony, indicated that the agency lacks a strategic plan 
that will deal with these critical acres that he indicated on 
his poster board. You indicated that you will focus first on 
certain critical watershed areas, urban-rural wildlands 
interface, and certain wildlife habitat areas, especially for 
critical wildlife habitat.
    Does that comport with what Mr. Hill said, in terms of the 
fact that there are 10 million acres left with absolutely no 
plan whatsoever or no long or short range plan to do anything 
with those acres?
    Ms. McDougle. Well, I thought the remarks were interesting 
in that it was suggested that we have a national plan for 
addressing these issues, and I'm not sure that we believe that 
that is indeed required. Our efforts in this regard are not 
just the Forest Service's; they are all the land management 
agencies who have collectively decided what the priorities are.
    Our activities in terms of reducing fuels--it's not done 
out of the Washington office. It's not done nationally; it's 
done by the units, and as they aggregate, we can tell how much 
that they feel they are capable of getting done in any given 
year, and it's an estimate. Sometimes they do more, like this 
year. I think we exceeded our targets during this Fiscal Year, 
and so these are estimates that are field-driven. And in terms 
of how they're going to go about doing it, these are also their 
calls, based on--on the ground conditions.
    Mrs. Chenoweth. Well, given that we're talking about 39 
million acres that are in a very, very, very serious 
catastrophic condition--39 million acres. You'll agree to that, 
right?
    Ms. McDougle. That's the best estimate we have, and we are 
validating those numbers right now.
    Mrs. Chenoweth. OK. That's about one-third of the entire 
base of our national forests. How did it happen that the agency 
let one-third of its entire resource get into this kind of 
condition?
    Ms. McDougle. Like I said, it's taken over 100 years for 
this to happen, and it's going to take some time to do it. And 
as Mr. Sampson said earlier in his testimony, it isn't any one 
thing. It isn't totally within the agency's control, and, 
frankly, it hasn't been a priority in Congress. The priority 
has been focused on the timber program, and this hasn't been 
one of those issues that has been a priority on the Hill.
    We did--just to get the fuels program some attention--
request and receive for the 1998 appropriation a specific 
budget identify for fuels because we weren't able to get--we 
weren't able to build a program. We received support from the 
Congress in 1998, and as best I can tell, we will in 1999. We 
spent $50 million in 1998, and we requested in the President's 
budget $65 million. This is an evolving effort of the Forest 
Service to focus attention on the fuels issue.
    Mrs. Chenoweth. Now the President asked for $65 million 
specifically for what?
    Ms. McDougle. Fuels.
    Mrs. Chenoweth. Fuels. In what way?
    Ms. McDougle. Well, for fuels management, and in terms of 
strictly devoted to reducing the fuels. You know, the methods 
are not--there are a whole array of tools to be used, but they 
all go toward reducing the fuels.
    Mrs. Chenoweth. I think I probably share with you the fact 
that we can't go back and can't keep asking ourselves, ``Why?'' 
We have a difference in opinion as to why 39 million acres are 
in a situation that is considered code red. But I want you to 
know, Ms. McDougle, Congress is concerned, and there is a lot 
of expression of concern on the Hill.
    I get the stuffing kicked out of me, and other western 
Members get the stuffing kicked out of them, because we're not 
seeing a return to the timber account. And the environmental 
organizations and their publications are replete with the fact 
that we can't manage sufficiently to do anything but have low-
cost timber sales.
    So, yes, you need to know at your level and at every level 
that Congress is very concerned and very concerned that we're 
able to return money back to our timber account. Nobody is more 
uncomfortable with the fact that we are having below-cost 
timber sales while we're seeing a deterioration in the forest 
system itself than I am.
    So, what can you provide the Committee in terms of maps and 
tables indicating the current fuel loads on national forests, 
by State and by watershed, and the levels of risk of 
catastrophic fire that they face in relation to some explained 
scales of risk and hazards to resources and to people? I'd like 
for you to be able to do that.
    And, furthermore, I wanted to ask you--you mentioned the 
fact that you're still involved in mapping. Isn't a lot of the 
mapping being done by aircraft or by satellite, in terms of the 
intensity of fuels in the forest?
    Ms. McDougle. We're doing GIS modeling. Regarding when will 
the maps be available, I think I mentioned to you at a previous 
hearing that we will have our Fire: Forests at Risk map 
available this fall. I learned Friday that we should have it 
early November. We have a map, and our people are currently 
validating a map--a new map that shows the wildland urban 
interface areas that are of great concern, and we're updating 
our insect and disease map.
    So I think that in the next month or two, we will have a 
pretty darned good picture of all of these issues to make some 
assumptions from, especially in terms of focusing priorities on 
work.
    Mrs. Chenoweth. When you prepare projects to improve forest 
conditions, such as timber sales, thinnings, mechanical field 
treatments, and/or prescribed burning, what types of 
environmental analyses are required?
    Mr. Croft. Madam Chairman?
    Mrs. Chenoweth. Yes.
    Mr. Croft. I think that would be based on the complexity of 
the project at hand. I don't know first-hand knowledge of 
perhaps what you are referring to. At one time--I have been in 
the field for years. I've done timber sales, I've done 
thinnings, and I've fought fire. I just want you to understand 
that. When I first started out, I could do an EA for a 20 
million board feet timber sale. Today you require an EIS. It 
clearly has changed in terms of what's required.
    On fuels projects, it's all depending on where you are and 
what the probable impacts are. In the southeast, you could do a 
categoric exclusion for a 1,000-acre prescribed fire. If you're 
in the Northwest, it may be only 20 acres, so it depends on the 
nature of the project and the probable impacts of that project.
    Mrs. Chenoweth. Interesting. Well, Ms. McDougle or Mr. 
Croft, I've seen a proposal establishing an arbitrary acreage 
limit for thinnings and other activities that require an EIS, 
based on which eco-region the project is located in, so if it's 
located in the southeast it might have another arbitrary 
requirement than in the Northwest. It appears that the proposal 
would greatly increase the number of EIS's required for such 
vegetation management proposals, and given the catastrophic 
conditions that we have out there, I'm very concerned about 
that. Would one of you address that?
    Mr. Croft. I think you might be referring to the draft 
regulations?
    Mrs. Chenoweth. Yes, the draft regulations.
    Mr. Croft. I've only just seen those, and I just have seen 
them and have not had that chance to look at them. I know at 
first glance we did have some concerns, and we are talking with 
the land management planning people right now about those 
concerns, I think for the same reasons.
    Mrs. Chenoweth. Thank you. I would very much appreciate 
your staying in close touch with my staff on this. I'm very 
concerned about it, given the catastrophic situations that we 
have. I do think the National Forest Management Act does allow 
for the supervisor to be able to use his own experience and 
discretion in making those decisions, and I don't want to take 
that away from him. So, I would appreciate your focus on this.
    As you know, I have a lot more questions, but my time has 
expired, and I will excuse you right now, but I will be 
submitting more questions for you to answer. And this record 
will remain open for 5--or for 10 working days, should you wish 
to supplement your testimony with anything. And I would 
appreciate your answering our questions within 30 days--30 
calendar days.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. So with that, again, I want to thank the 
panels for being here and for your valuable testimony, and with 
that, this hearing is adjourned.
    [Whereupon, at 3:45 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
 Statement of Earl L. Marcellus, Chelan County Courthouse, Wenatchee, 
                               Washington

    Dear Committee members:
    I am Chelan County Commissioner Earl Marcellus and on 
behalf of our three member board I want to thank you for this 
opportunity to discuss our forest health problems and suggest 
solutions.
    First a few facts about Chelan County:

        <bullet> The eastern border follows the Columbia River where 
        the arid environment creates rangeland conditions.
        <bullet> The western border extends to the crest of the Cascade 
        Mountain range where the forest type ranges from Douglas fir to 
        late successional hemlock/cedar species.
        <bullet> Population--63,000
        <bullet> Percent ``ownership''
          --less than 12 percent privately owned
          --88+ percent controlled by government (primarily the U.S. 
        Forest Service).
        <bullet> Obviously Chelan County is a rural, timber dependent 
        county.
    With due respect to the Congressmen who will hear and/or read my 
testimony I would like to make a tongue in cheek but pointed statement. 
It appears that the perception of many from the Potomac is that the 
U.S. Forest Service and Bureau of Land Management (B.L.M.) are doing an 
excellent, scientifically based job of managing our national forests in 
the Western states. That perception, however, is just as incorrect as 
the perception of those in the western states who believe Washington, 
DC is the ``workfree drug place of America.''
    The fact of the matter is, a crisis was brewing in the early 1990's 
because the health of our forests were in decline and no active, 
legitimate effort was being made by the U.S. Forest Service to harvest 
the timber that was dead and dying from insects, disease, and drought. 
Then, in late July 1994 that brewing crisis blew up into an absolute 
disaster when a lightning storm moved through our county.
    Seventy (70) million dollars later the fires were suppressed but 
only after the loss of 200 thousand acres of valuable watershed and 
wildlife habitat and approximately 1 billion board feet of timber. To 
date, rehabilitation costs have surpassed 20 million dollars yet less 
than 10 percent of the burned timber was ever salvaged on Federal lands 
resulting in the needless loss of revenue and resource utilization. 
These losses do not take into account the tremendous personal and 
financial hardships experienced by the citizens and businesses 
throughout our county because of highway closures and the smoke filled 
air keeping tourists from visiting as well as the loss of homes and 
other properties by our citizens.
    The tragic fact is the following two avoidable contributors led to 
much of these devastating losses:

          1. The U.S. Forest Service obviously had a ``let burn 
        policy,'' at least for the first 3 days during which time the 
        initial manageable fires turned into dangerous project size 
        fires (no budget constraints).
          2. The U.S. Forest Service has abandoned the proven, 
        scientifically based, traditional forest management practices 
        that in the past have controlled forest health problems through 
        early treatment of insects, diseases and overstocking.
    When the Forest Service supervisors and district rangers are 
challenged about their management practices they avoid discussing the 
merits of the issues and simply state they are following the laws 
established by Congress. I appeal to you to review the current laws and 
policies which are having a devastating effect on the health of our 
forests as well as our communities. And then establish laws and allow 
only regulatory policy that is based on sound, verifiable, peer-
reviewed science. Congress must weigh lightly and guardedly the 
environmental rhetoric and computer modeling which too often simply 
reflects the bias of the bureaucrat at the keyboard.
    Specifically, Congress should consider at a minimum the following 
points:

          1. Grant the U.S. Forest Service the authority to begin the 
        prompt removal of dead or dying trees of all species and sizes 
        (not just the small trees).
          2. Require the Forest Service and B.L.M. to designate forest 
        health emergency and high-risk areas and apply necessary 
        remedial management activities.
          3. Provide for expedited processes for complying with 
        environmental activities, laws and regulations.
          4. Limit judicial review and prohibit frivolous appeals.
          5. Require proactive management activities aimed at enhancing 
        forest health be included in the planning process of the U.S. 
        Forest Service.
    I am aware that those in Congress who agree with my assessment of 
forest health problems and their solutions will meet with opposition 
from fellow Congressmen and the current administration. However, the 
signers of the Declaration of Independence faced much greater 
opposition when they mutually pledged to each other their lives, their 
fortunes, and their sacred honor. I sincerely believe we must look 
backwards if we are going to move forward in salvaging not only our 
forests but our beloved Republic.
                                 ______
                                 

     Statement of Gordon Ross, Commissioner for Coos County, Oregon

    Thank you for the opportunity to speak to you on the issue 
of forest health in the Northwest. I am especially thankful to 
have the opportunity to extol the virtues of the Douglas Fir 
Region where we have some of the most productive forest land 
and anadromous streams in the world and particularly Coos 
County, where we have consistently, since 1855, harvested more 
timber than any county in Oregon and at the same time have more 
Coho salmon than all other counties combined. This to me was an 
anomaly until the work on ``Disturbance Based Ecosystems'' was 
published in the fall of 1995 and then God gave us a divine 
demonstration on November 18, 1996 and we all saw first hand 
the part that slides play in rejuvenating our streams with 
spawning gravel and large woody debris. I wish to share with 
you two things today. #1, the science and #2 the opportunity it 
presents.

(1) Both the Douglas Fir forests of the region and the 
anadromous streams are ecosystems based in disturbances, mainly 
fire and flood.

    Gifford Pinchot, after three years on the Olympic Peninsula 
stated ``I have not seen a Douglas Fir seedling growing under 
the canopy or an opening that was not filled with them.'' Fire 
was the principle stand replacement event in nature. While its 
frequency varied, recent research by Bob Zybach indicates a 
frequency greater than formerly believed. The fact that an 
early cruise of marketable timber in Coos County shows 92 
percent to be Douglas Fir and only 8 percent shade tolerant 
species backs up this research. I must comment, the meager 
amount of regeneration harvest embodied in the N.W.F.P. will 
result in a much different mosaic than existed in pre-
settlement times.
    The flood events that followed the fires will still occur 
but with passive management they will be less dynamic in their 
restoration of our streams. In short, active management is 
needed to replicate the disturbances that shaped the Douglas 
Fir region. With active management, disturbances can be 
located, timed and controlled to maximize the beneficial 
impacts on our streams, while minimizing any adverse effects. A 
happy by-product of this approach is utilization of our timber 
resources in a way that supports our local communities.

(2) What are the opportunities this newly articulated science 
provides under the N.W.F.P. and R.O.D?

          (A) In the short term the opportunities lie in the management 
        on the matrix lands within the buffers of the intermittent 
        streams. The current buffers were intended by the N.W.F.P. to 
        be temporary until watershed analyses were completed. Many of 
        the watershed analyses are now complete. The opportunities 
        exist within these buffers for regeneration harvest that would 
        leave large debris that could eventually enhance a fish-bearing 
        stream. The opportunity to leave standing timber that could 
        reach those streams or leave down wood on a harvest unit for 
        that purpose could far better reproduce natural events than 
        passive no touch management. In many cases the large woody 
        debris could be placed in or near streams to speed up natural 
        processes. This approach could be gradually implemented now, 
        without disrupting the N.W.F.P., indeed consistent with the 
        N.W.F.P. expectation that managers would gradually move back 
        into the buffers once watershed review was complete. The BLM 
        resource management plan periodic reviews scheduled for the 
        next two years provide the perfect opportunity to move in this 
        direction.
          (B) The long-range opportunity is to apply this science in 
        the next decadal plan across the entire Federal landscape. The 
        timetable is right to begin this historic and scientific 
        approach and extend these principles into the first decadal 
        plan of the 21st century. A new decadal plan is due in 2004. I 
        urge the Federal managers to begin the process now, so we have 
        orderly plan development rather than the slap-dash, hurry-up 
        process that gave us the N.W.F.P.
    This information can and must be a turning point in the way 
Congress and the American consumer view commodity production in the 
forests of the Northwest. The political decisions that have been made 
about logging have hinged around the debate over environmental 
protection vs. commodity production. We have tried to balance, as it 
were, these issues on a giant set of steelyards, placing on the right 
side the commodity benefits, jobs, revenues and resources while on the 
left side clean air, clean water, fish and wildlife resources. We have 
seen the balance go heavier to the right as the threat of job losses in 
our rural communities in the Northwest materialized, as revenues 
dropped for essential services and as the cost of housing rose across 
America and our balance of trade was adversely impacted by imports.
    One by one through science and best management practices, we have 
also seen the shifting of the other issue from one side to the other. 
Most wildlife that the average person knows or cares about are 
benefited by the openings and temporary meadows brought about by a 
regulated harvest. Last year it was established before this Committee 
that our air: that the amount of oxygen released into the atmosphere, 
the amount of carbon fixed in wood fiber by the forest is enhanced by 
the harvest of mature timber and manufacture of durable goods and the 
re-growing of new timber stands.
    I submit to you, ladies and gentlemen, until this new science on 
disturbance based ecosystems has been presented the only issue left on 
the other side of the fulcrum is the health of our streams and our 
trout and salmon runs and this is no small issue. This issue also 
embodies the issues of jobs, revenues and resources. But today, I 
submit to you that the health of not only our forests but also our 
streams and their runs of salmon and trout and the jobs and food supply 
connected with those runs will, over the long run, be benefited by 
commodity production after careful watershed analysis are completed. 
Today I submit this report into the Congressional record and 
subsequently into the Library of Congress for the benefit of those 
decision makers that hold in their hand the destiny of the Northwest, 
the health of its forests and streams and to a large degree, the 
availability of affordable housing in America.
    I wish you to note this report was published in 1995, it has been 
published in scientific journals and has been out for scientific peer 
review for three years. It is not premature to use this information as 
a basis for decision making.

[GRAPHIC] [TIFF OMITTED] T1714.001

[GRAPHIC] [TIFF OMITTED] T1714.002

[GRAPHIC] [TIFF OMITTED] T1714.003

[GRAPHIC] [TIFF OMITTED] T1714.004

[GRAPHIC] [TIFF OMITTED] T1714.005

[GRAPHIC] [TIFF OMITTED] T1714.006

[GRAPHIC] [TIFF OMITTED] T1714.007

[GRAPHIC] [TIFF OMITTED] T1714.008

[GRAPHIC] [TIFF OMITTED] T1714.009

[GRAPHIC] [TIFF OMITTED] T1714.010

[GRAPHIC] [TIFF OMITTED] T1714.011

[GRAPHIC] [TIFF OMITTED] T1714.012

[GRAPHIC] [TIFF OMITTED] T1714.013

[GRAPHIC] [TIFF OMITTED] T1714.014

[GRAPHIC] [TIFF OMITTED] T1714.015

[GRAPHIC] [TIFF OMITTED] T1714.016

[GRAPHIC] [TIFF OMITTED] T1714.017

[GRAPHIC] [TIFF OMITTED] T1714.018

[GRAPHIC] [TIFF OMITTED] T1714.019

[GRAPHIC] [TIFF OMITTED] T1714.020

[GRAPHIC] [TIFF OMITTED] T1714.021

[GRAPHIC] [TIFF OMITTED] T1714.022

[GRAPHIC] [TIFF OMITTED] T1714.023

[GRAPHIC] [TIFF OMITTED] T1714.024

[GRAPHIC] [TIFF OMITTED] T1714.025

[GRAPHIC] [TIFF OMITTED] T1714.026

[GRAPHIC] [TIFF OMITTED] T1714.027

[GRAPHIC] [TIFF OMITTED] T1714.028

[GRAPHIC] [TIFF OMITTED] T1714.029

[GRAPHIC] [TIFF OMITTED] T1714.030

[GRAPHIC] [TIFF OMITTED] T1714.031

[GRAPHIC] [TIFF OMITTED] T1714.032

[GRAPHIC] [TIFF OMITTED] T1714.033

[GRAPHIC] [TIFF OMITTED] T1714.034

[GRAPHIC] [TIFF OMITTED] T1714.035

[GRAPHIC] [TIFF OMITTED] T1714.036

[GRAPHIC] [TIFF OMITTED] T1714.037

[GRAPHIC] [TIFF OMITTED] T1714.038

[GRAPHIC] [TIFF OMITTED] T1714.039

[GRAPHIC] [TIFF OMITTED] T1714.040

[GRAPHIC] [TIFF OMITTED] T1714.041

[GRAPHIC] [TIFF OMITTED] T1714.042

[GRAPHIC] [TIFF OMITTED] T1714.043

[GRAPHIC] [TIFF OMITTED] T1714.044

[GRAPHIC] [TIFF OMITTED] T1714.045

[GRAPHIC] [TIFF OMITTED] T1714.046

[GRAPHIC] [TIFF OMITTED] T1714.047

[GRAPHIC] [TIFF OMITTED] T1714.048

[GRAPHIC] [TIFF OMITTED] T1714.049

[GRAPHIC] [TIFF OMITTED] T1714.050

[GRAPHIC] [TIFF OMITTED] T1714.051

[GRAPHIC] [TIFF OMITTED] T1714.052

[GRAPHIC] [TIFF OMITTED] T1714.053

[GRAPHIC] [TIFF OMITTED] T1714.054

[GRAPHIC] [TIFF OMITTED] T1714.055

[GRAPHIC] [TIFF OMITTED] T1714.056

[GRAPHIC] [TIFF OMITTED] T1714.057

[GRAPHIC] [TIFF OMITTED] T1714.058

[GRAPHIC] [TIFF OMITTED] T1714.059

[GRAPHIC] [TIFF OMITTED] T1714.060

[GRAPHIC] [TIFF OMITTED] T1714.061

[GRAPHIC] [TIFF OMITTED] T1714.062

[GRAPHIC] [TIFF OMITTED] T1714.063

[GRAPHIC] [TIFF OMITTED] T1714.064

[GRAPHIC] [TIFF OMITTED] T1714.065

[GRAPHIC] [TIFF OMITTED] T1714.066

[GRAPHIC] [TIFF OMITTED] T1714.067

[GRAPHIC] [TIFF OMITTED] T1714.068

[GRAPHIC] [TIFF OMITTED] T1714.069

[GRAPHIC] [TIFF OMITTED] T1714.070

[GRAPHIC] [TIFF OMITTED] T1714.071

[GRAPHIC] [TIFF OMITTED] T1714.072

[GRAPHIC] [TIFF OMITTED] T1714.073

[GRAPHIC] [TIFF OMITTED] T1714.074

[GRAPHIC] [TIFF OMITTED] T1714.075

[GRAPHIC] [TIFF OMITTED] T1714.076

[GRAPHIC] [TIFF OMITTED] T1714.077

[GRAPHIC] [TIFF OMITTED] T1714.078

[GRAPHIC] [TIFF OMITTED] T1714.079

[GRAPHIC] [TIFF OMITTED] T1714.080

[GRAPHIC] [TIFF OMITTED] T1714.081

[GRAPHIC] [TIFF OMITTED] T1714.082

[GRAPHIC] [TIFF OMITTED] T1714.083

[GRAPHIC] [TIFF OMITTED] T1714.084

[GRAPHIC] [TIFF OMITTED] T1714.085

[GRAPHIC] [TIFF OMITTED] T1714.086

[GRAPHIC] [TIFF OMITTED] T1714.087

Statement of Janice McDougle, Associate Deputy Chief, State and Private 
   Forestry, United States Department of Agriculture, Forest Service

MADAM CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    I am Janice McDougle, Associate Deputy Chief for State and 
Private Forestry responsible for forest health, fire and 
aviation, and cooperative forestry programs. Thank you for the 
opportunity to join you to discuss forest health and to hear 
the General Accounting Office's (GAO) preliminary observations 
concerning forest health and fuels.
    It is our understanding that the GAO report will focus on 
the health of the nation's forests as it relates to fuel 
conditions and risk of damage from catastrophic wildland fire. 
The Forest Service is looking forward to working with GAO to 
identify ways to continually improve forest health conditions.

Wildland Conditions--What is the Nature of the Problem?

    We estimate that approximately 39 million acres of National 
Forest System lands, primarily in the inland West and the 
Atlantic coastal states, are at high risk from damaging, high-
intensity, wildland fire. Many of these stands are dense and 
over-crowded with high mortality rates due to bark beetle or 
other insect outbreaks. For instance, in eastern Oregon and 
Washington, forest inventories show that mortality has been 
above average over the past decade on all forest ownerships.
    It is important that the public understands that fire is 
part of a natural, ecological cycle and, over a long enough 
period, all forests will eventually burn. The exclusion of 
wildland fire for the last 100 years has had a profound 
influence on the composition and structure of natural fuel 
conditions, and the function of those ecosystems where frequent 
and low-intensity fires historically occurred. These conditions 
are contributing to the growing severity of the fire situation 
throughout the country. Unless we address these changed 
conditions, the fire severity situation will continue to grow, 
threatening the health of watersheds and larger ecosystems.
    In addition to changes in natural hazardous fuels, 
demographic changes of people moving from urban areas to rural 
areas have resulted in an increasingly complex mix of people, 
infrastructure and forests, which is known as the wildland 
urban interface. Throughout the United States it is more and 
more common to see homes and other types of structures being 
built in wildland environments. Because of their location, 
these structures are extremely vulnerable to fire should a 
wildland fire occur in the surrounding area. This trend is 
resulting in a volatile situation that must be addressed.

Management Direction--What are We Doing?

    This is as much a forest health concern as a fuels 
condition. We are addressing this problem at the most 
fundamental level. We have embarked on an aggressive program to 
use fire in a more natural ecological role to reduce hazardous 
fuels and to help protect forest ecosystems from the ravages of 
high-intensity fires and epidemic insect attacks. Other tools 
we are using to improve ecosystem conditions include timber 
sales, thinning, and other fuel reduction methods, including 
mechanical treatments. However, we will not treat, nor is it 
practical to treat, all of the affected acreage. Therefore, we 
are prioritizing the areas to be treated first, to address 
those areas of greatest risk and potential for damage such as, 
wildland urban interface areas, critical watersheds, and 
sensitive wildlife habitats. This strategy will focus available 
funds and capabilities where they will have the most effect. We 
are creating a management environment that encourages the 
treatment of those priority areas through budget allocation and 
direction to local managers.
    To help better understand the nature of the issues, we are 
currently implementing the Joint Fire Science Plan as provided 
in the Conference Committee report for the 1998 Interior 
Appropriations Act. The four principal purposes of the plan are 
to complete a national program for:

        <bullet> Fuels Inventory and Mapping
        <bullet> Evaluation of Fuels Treatment
        <bullet> Scheduling of Treatments
        <bullet> Monitoring and Evaluation
    Projects have already been identified and grants and contracts 
issued to help us better manage the hazardous fuel reduction program.
    We appreciate Congressional support for expanding our fuels 
treatment program. During FY 1998, the Forest Service will have treated 
more than 1.2 million acres. By 2005, we plan to treat at least 3.0 
million acres annually. Treatments will continue to focus on high 
hazard areas and those which pose significant risk to highly valued 
resources, public and firefighter safety and wildland urban interface 
areas.
    This program expansion has received Congressional support both in 
terms of increased appropriations and a budget structure that moved 
hazardous fuel reduction activities from Preparedness and Fire Use to 
Fire Operations. This allows flexibility in funding hazardous fuel 
activities to address more effectively the health of NFS lands without 
detracting from the capability to prevent forest fires and take prompt 
action on supressing wildfires. The Federal Fire Policy, also, has 
given both the Forest Service and the Department of the Interior 
greater flexibility to manage wildland fire to benefit resources, 
particularly using prescribed fire.

Management Needs--Challenges

    As the hazard fuels reduction program expands, we are facing many 
challenges that may reduce our ability to use cost effective prescribed 
fire. Examples of these challenges include public acceptance and 
understanding of prescribed fire practices, smoke management issues, 
and concerns for homes and structures in the wildland urban interface. 
Also, costs to treat the highest priority areas, such as highly valued 
resource areas and wildland urban interface zones, will be higher than 
current national fuel treatment costs per acre. This is because some of 
these areas will require multiple treatments, such as combinations of 
mechanical treatments and fire to be safely and effectively executed. 
Other internal challenges to accomplishment of hazard fuel reduction 
goals include maintenance and development of skills, training, 
personnel and contracting authorities to support adequately the 
program.

Summary

    Clearly, the challenges we face in improving forest health and 
reducing fire risk are great. By restoring fire to its natural role in 
ecosystems, we can improve the health of our nation's forests while, at 
the same time, reducing their susceptibility to catastrophic fire. 
Through improved collaboration among cooperating Federal agencies and 
State and local entities we can maximize the effectiveness and 
efficiency of our fuels treatment and fire fighting efforts insuring 
that resources are better utilized.
    We cannot lose sight of the fact that the current situation 
developed over many decades. Any solution requires significant time and 
commitment. The Chief is changing accountability within the agency to 
assure that the performance measures of District Rangers and Forest 
Supervisors are directly related to the conditions of the forests they 
manage. We are working to assure that there is a comprehensive 
inventory of conditions and strategic ``plan of attack,'' and we are 
working to insure that all stakeholders are partners in our efforts. We 
believe that we have the ability and capability to move towards 
improved forest health and reduced fire risk in critical areas of 
concern to the public.
    Thank you, Madam Chairman, and I welcome any questions the 
Subcommittee may have.

[GRAPHIC] [TIFF OMITTED] T1714.090

[GRAPHIC] [TIFF OMITTED] T1714.091

[GRAPHIC] [TIFF OMITTED] T1714.092

[GRAPHIC] [TIFF OMITTED] T1714.093

[GRAPHIC] [TIFF OMITTED] T1714.094

[GRAPHIC] [TIFF OMITTED] T1714.095

[GRAPHIC] [TIFF OMITTED] T1714.096

[GRAPHIC] [TIFF OMITTED] T1714.097

[GRAPHIC] [TIFF OMITTED] T1714.098

[GRAPHIC] [TIFF OMITTED] T1714.099

[GRAPHIC] [TIFF OMITTED] T1714.100

[GRAPHIC] [TIFF OMITTED] T1714.101

[GRAPHIC] [TIFF OMITTED] T1714.102

[GRAPHIC] [TIFF OMITTED] T1714.103

[GRAPHIC] [TIFF OMITTED] T1714.104

[GRAPHIC] [TIFF OMITTED] T1714.105

[GRAPHIC] [TIFF OMITTED] T1714.106

[GRAPHIC] [TIFF OMITTED] T1714.107

[GRAPHIC] [TIFF OMITTED] T1714.108

[GRAPHIC] [TIFF OMITTED] T1714.109

[GRAPHIC] [TIFF OMITTED] T1714.110

[GRAPHIC] [TIFF OMITTED] T1714.111

[GRAPHIC] [TIFF OMITTED] T1714.112

[GRAPHIC] [TIFF OMITTED] T1714.113

[GRAPHIC] [TIFF OMITTED] T1714.114

[GRAPHIC] [TIFF OMITTED] T1714.115

[GRAPHIC] [TIFF OMITTED] T1714.116

[GRAPHIC] [TIFF OMITTED] T1714.117

[GRAPHIC] [TIFF OMITTED] T1714.118

[GRAPHIC] [TIFF OMITTED] T1714.119

[GRAPHIC] [TIFF OMITTED] T1714.120

[GRAPHIC] [TIFF OMITTED] T1714.121

[GRAPHIC] [TIFF OMITTED] T1714.122

[GRAPHIC] [TIFF OMITTED] T1714.123

[GRAPHIC] [TIFF OMITTED] T1714.124

[GRAPHIC] [TIFF OMITTED] T1714.125

[GRAPHIC] [TIFF OMITTED] T1714.126

[GRAPHIC] [TIFF OMITTED] T1714.127

[GRAPHIC] [TIFF OMITTED] T1714.128

[GRAPHIC] [TIFF OMITTED] T1714.129

[GRAPHIC] [TIFF OMITTED] T1714.130

[GRAPHIC] [TIFF OMITTED] T1714.131

[GRAPHIC] [TIFF OMITTED] T1714.132

[GRAPHIC] [TIFF OMITTED] T1714.133

[GRAPHIC] [TIFF OMITTED] T1714.134

[GRAPHIC] [TIFF OMITTED] T1714.135

[GRAPHIC] [TIFF OMITTED] T1714.136

[GRAPHIC] [TIFF OMITTED] T1714.137


</pre></body></html>
